No. 20-____
IN THE

Supreme Court of the United States
————
COMMON GROUND HEALTHCARE COOPERATIVE, ON
BEHALF OF ITSELF AND ALL OTHERS SIMILARLY SITUATED,

Petitioners,
v.
UNITED STATES,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court Of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
STEPHEN A. SWEDLOW
ANDREW H. SCHAPIRO
QUINN EMANUEL URQUHART
& SULLIVAN LLP
191 North Wacker Dr.
Suite 2700
Chicago, IL 60606
DAVID M. COOPER
QUINN EMANUEL URQUHART
& SULLIVAN LLP
51 Madison Ave., 22nd Floor
New York, NY 10010

KATHLEEN M. SULLIVAN
Counsel of Record
J.D. HORTON
ADAM B. WOLFSON
QUINN EMANUEL URQUHART
& SULLIVAN LLP
865 S. Figueroa St.
10th Floor
Los Angeles, CA 90017
(202) 538-8000
katheensullivan@
quinnemanuel.com

Counsel for Petitioners
February 24, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
May the United States invoke a non-statutory
mitigation defense to avoid the unambiguous
requirement of section 1402 of the Patient Protection
and Affordable Care Act (“ACA”) that the Government
“shall make” cost-sharing reduction payments to
insurers in set amounts?

(i)

ii
PARTIES TO THE PROCEEDING BELOW
Common Ground Healthcare Cooperative was a
plaintiff-appellee below.
The United States was a defendant-appellant below.

iii
RULE 29.6 STATEMENT
Common Ground Healthcare Cooperative has no
parent corporation, and no corporation owns more
than 10% of its stock.

iv
RELATED PROCEEDINGS
Common Ground Healthcare Cooperative v. United
States, No. 20-1286 (Fed. Cir. order issued Sept. 30,
2020; order denying rehearing en banc issued Dec. 16,
2020; mandate issued Dec. 23, 2020).
Common Ground Healthcare Cooperative v. United
States, No. 1:17-cv-00877 (Fed. Cl. judgment issued
Oct. 22, 2019).

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING BELOW .....

ii

RULE 29.6 STATEMENT ...................................

iii

RELATED PROCEEDINGS ...............................

iv

INTRODUCTION ................................................

1

OPINION BELOW ..............................................

5

JURISDICTION ..................................................

5

STATUTORY PROVISIONS INVOLVED ..........

5

STATEMENT ......................................................

6

A. Cost-Sharing Reductions Under The
ACA ...........................................................

6

B. The Government’s Non-Payments For
Cost-Sharing Reductions ..........................

7

C. The Suit At Issue ......................................

7

REASONS FOR GRANTING THE WRIT ..........

10

I. THE FEDERAL CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S AND
OTHER CIRCUITS’ PRECEDENTS IN
HOLDING THAT A NONSTATUTORY
MITIGATION DEFENSE CAN REDUCE
PAYMENTS
THE
GOVERNMENT
“SHALL MAKE” .......................................

10

A. The Decision Below Conflicts With
Precedents That Statutory Payment
Requirements Are Claims For Specific
Relief ....................................................

12

(v)

vi
TABLE OF CONTENTS—Continued
Page
B. The Decision Below Conflicts With
Precedents That The Statute Rather
Than Background Contract Law
Defines The Remedy For Failure To
Pay .......................................................

19

C. The Decision Below Conflicts With
Precedents That Mitigation Does Not
Apply To An Unrestricted Payment
Obligation ............................................

24

II. THE ISSUE IS EXTRAORDINARILY
IMPORTANT AND WARRANTS THIS
COURT’S REVIEW ...................................

26

CONCLUSION ....................................................

31

APPENDIX A – Federal Circuit Order,
September 30, 2020 ........................................

1a

APPENDIX B – Court of Federal Claims
Opinion & Order, February 15, 2019 ............

3a

APPENDIX C – Federal Circuit Order
Denying Petition For Rehearing En Banc,
December 16, 2020 .........................................

37a

APPENDIX D – District Court Judgment,
October 22, 2019 .............................................

39a

APPENDIX E – Federal Circuit Opinion,
Community Health Choice, Inc. v. United
States, August 14, 2020..................................

47a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Amber Res. Co. v. United States,
538 F.3d 1358 (Fed. Cir. 2008) .................

16

Am.’s Cmty. Bankers v. F.D.I.C.,18
200 F.3d 822 (D.C. Cir. 2000) ...................

18

Barnes v. Gorman,
536 U.S. 181 (2002) ...................................

22

Bowen v. Massachusetts,
487 U.S. 879 (1988) ............ 3, 12, 13, 14, 15, 16,
17, 18, 28
Branch Banking & Tr. Co. v.
Lichty Bros. Constr.,
488 F. App’x 430 (11th Cir. 2012) ............

24

Cherokee Nation of Okla. v. Leavitt,
543 U.S. 631 (2005) ................................... 21, 22
City of Houston, Tex. v. Dep’t of Hous. &
Urban Dev.,
24 F.3d 1421 (D.C. Cir. 1994) ...................

18

Common Ground Healthcare Coop. v.
United States,
137 Fed. Cl. 630 (2018) .............................

7

Community Health Choice, Inc. v.
United States,
970 F.3d 1364 (Fed. Cir. 2020) ................passim
County of Suffolk v. Sebelius,
605 F.3d 135 (2d Cir. 2010) ......................

18

Craft v. United States,
589 F.2d 1057 (Ct. Cl. 1978) .....................

21

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Dep’t of the Army v. Blue Fox, Inc.,
525 U.S. 255 (1999) ...................................

16

Gebser v. Lago Vista Indep. Sch. Dist.,
524 U.S. 274 (1998) ...................................

22

Kansas Gas & Elec. Co. v. United States,
685 F.3d 1361 (Fed. Cir. 2012) .................

25

LaSalle Talman Bank, F.S.B. v.
United States,
317 F.3d 1363 (Fed. Cir. 2003) .................

25

Linea Area Nacional de Chile S.A. v.
Meissner,
65 F.3d 1034 (2d Cir. 1995) ......................

17

Maine Community Health Options v.
United States,
140 S. Ct. 1308 (2020) ..............................passim
McBride v. Mkt. St. Mortg.,
381 F. App’x 758 (10th Cir. 2010) ............

24

Md. Dep’t of Human Res. v. HHS,
763 F.2d 1441 (D.C. Cir. 1985) .................

17

Mobil Oil Expl. & Producing Se., Inc. v.
United States,
530 U.S. 604 (2000) ...................................

16

Modoc Lassen Indian Hous. Auth. v.
U.S. Dep’t of Hous. & Urban Dev.,
881 F.3d 1181 (10th Cir. 2017) ..... 17, 18, 19, 23
PAMC, Ltd. v. Sebelius,
747 F.3d 1214 (9th Cir. 2014) ...................

23

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Publishers Res., Inc. v.
Walker-Davis Publ’ns, Inc.,
762 F.2d 557 (7th Cir. 1985) ..................... 24, 26
Rice’s Lucky Clover Honey, LLC v. Hawley,
700 F. App’x 852 (10th Cir. 2017) ............

24

Ross v. Garner Printing Co.,
285 F.3d 1106 (8th Cir. 2002) ...................

25

Silver v. United States,
551 F.2d 295 (Ct. Cl. 1977) .......................

21

Wicker v. Hoppock,
73 U.S. (6 Wall.) 94 (1867) ........................

24

Zellous v. Broadhead Assocs.,
906 F.2d 94 (3d Cir. 1990) ........................

17

STATUTES AND REGULATIONS
5 U.S.C. § 5596(b)(1).....................................

21

26 U.S.C. § 36B .............................................

20

42 U.S.C. § 1396b(a) ..................................... 12, 14
42 U.S.C. § 18071(a) .....................................

5

42 U.S.C. § 18071(b)(1).................................

6

42 U.S.C. § 18071(c)(3)(A) ............................ 1, 5,
6, 11, 14, 20, 21, 25
42 U.S.C. § 18022(c)(3)(A)(i) ........................

6

42 U.S.C. § 18062(b) .....................................

14

45 C.F.R. § 156.430 ......................................

6

45 C.F.R. § 158.210(c)...................................

27

45 C.F.R. § 158.140(b)(1)(iii) ........................

27

x
TABLE OF AUTHORITIES—Continued
ADDITIONAL AUTHORITIES

Page(s)

Brief for Defendants, United States House
of Representatives v. Burwell, 2015 WL
9316243 (D.D.C. Dec. 2, 2015) (No. 1:14cv-01967), ECF No. 55-1 ...........................

27

Brief in Opposition, Fort Peck Housing
Auth. v. Dep’t of Housing & Urban
Development, No. 17-1353 (July 2018) ....

19

Oct., 12, 2017 Mem. from E. Hargan to S.
Verma re Payments to Issuers for CostSharing Reductions (CSRs) ......................

7

Supplemental
Brief
for
Appellant,
Community Health, No. 2019-1633, Dkt.
56 (Fed. Cir. Feb. 10, 2020) .................. 4, 26, 27

INTRODUCTION
The Federal Circuit decision at issue here allows the
Government to use a non-statutory mitigation defense
to evade its obligation to make payments in amounts
set by statute. That decision disregards the Court’s
instruction just last Term in Maine Community Health
Options v. United States, 140 S. Ct. 1308 (2020),
conflicts with other precedents in multiple ways, and
threatens to destabilize not only the healthcare system
but also government contracts ranging far beyond this
case. The decision thus warrants the Court’s review.
The statute at issue, the Patient Protection and
Affordable Care Act (“ACA”), states that the Government
“shall make periodic and timely payments to the issuer
equal to the value of [cost-sharing] reductions” that
qualified health plan (“QHP”) issuers are required to
make under the ACA. 42 U.S.C. § 18071(c)(3)(A). The
Government chose not to make those payments, on the
theory that there was no appropriation for them. That
is the same situation this Court addressed in Maine
Community, where the Government refused to make
“risk corridor” payments under the ACA. This Court
held that the “shall pay” statutory language created
both a right of action and a remedy in the form of
“specific sums already calculated, past due.” Maine
Community, 140 S. Ct. at 1331.
In contrast, under the Federal Circuit decision
below, the Government need never make payments
“equal to the value of [cost-sharing] reductions,” as
required by the statute. Instead, the Government can
subtract from the required amount other payments
that the QHP issuers received—unless the QHP issuers
can prove they would have received the other payments anyway, in a hypothetical world in which the
Government had made the statutorily required cost-

2
sharing payments. This constitutes a radical rewriting
of the statute with enormous consequences for the
functioning of the healthcare system. It also reflects a
change in basic principles of law, which would allow
the Government to shirk its statutory payment obligations under countless statutes.
Common Ground Healthcare Cooperative (“Common
Ground”) is a QHP issuer that brought suit—on behalf
of itself and class of 101 opt-in plaintiffs—against the
Government under the Tucker Act for payment of the
cost-sharing reduction (“CSR”) reimbursements. The
Court of Federal Claims granted summary judgment
to Common Ground for payment of the full amount of
the unpaid CSR reimbursements. The Federal Circuit
addressed the same issue for other individual QHP
issuers in Community Health Choice, Inc. v. United
States, 970 F.3d 1364 (Fed. Cir. 2020) (Dyk, J., joined
by Bryson and Taranto, JJ.), and correctly held that
plaintiffs have a cause of action to enforce the statutory
requirement that the Government “shall make” CSR
reimbursements to QHP issuers. App. 57a. But it
then erred in holding that the Government can invoke
a defense of mitigation to pay less than what the
statute requires. App. 74a. The Government’s appeal
of the Court of Federal Claims judgment for Common
Ground had been stayed pending resolution of
Community Health Choice. After that decision, the
Federal Circuit (Reyna, Wallach, and Chen, JJ.) entered
judgment consistent with Community Health Choice,
permitting the Government to reduce required payments to the Common Ground class based on mitigation.
I. The Federal Circuit’s decision in Community
Health Choice, as adopted here, conflicts with the
precedents of this Court and many courts of appeals.
Maine Community confirmed the fundamental principle

3
that the Government can and should be held to its
statutory obligations. 140 S. Ct. at 1331. The Federal
Circuit defied that principle here, where the statutory
language is materially identical to that in Maine
Community, holding that the plaintiffs could not
enforce the payment obligation as written in the ACA.
More generally, the Federal Circuit’s decision rests on
three consequential and erroneous legal rulings.
First, the Federal Circuit’s holding that the plaintiffs’
claim is subject to mitigation as an ordinary damages
claim, not a claim to the specific relief promised by the
statute, conflicts with both Maine Community and Bowen
v. Massachusetts, 487 U.S. 879 (1988), which held
that a claim for money to which a person is statutorily
entitled is a claim for specific relief, id. at 910. Common
Ground is not asking for money in compensation for
non-payment; it is simply asking for the Government
to pay the amounts required by statute. Consistent
with Maine Community and Bowen, several circuit
courts recognize that such a claim for money
statutorily required to be paid is one for specific relief.
Second, even assuming the claim were an ordinary
claim for monetary damages, the Federal Circuit’s
holding that mitigation can reduce those damages
conflicts with Maine Community, which held that the
statute defines both the right and the remedy. Here,
the Federal Circuit determined the remedy based not
on the statute, but on background contract-law principles of mitigation. There is nothing in the statute
to suggest that CSR payments can be reduced by
mitigation, and Maine Community specifically held
that “partial payment” does not suffice absent any
indication in the ACA that the Government can lessen
its obligation. 140 S. Ct. at 1321.

4
Third, even if the contract-law principle of mitigation were relevant, it does not apply to an absolute
promise to pay, which includes the statutory language
here. Every circuit to consider the issue has held that
the remedy for the breach of a promise to pay a certain
amount is the payment of that amount, and the defense
of mitigation is inapposite. The Federal Circuit simply
ignored this contrary case law.
II. These questions are of enormous importance.
There are countless statutes requiring Government
payments, and the Federal Circuit’s decision will
provide the Government a strong incentive not to pay
in the hope of receiving a reduction through mitigation. The result is that a statute that requires a
certain payment by the Government now is merely a
suggestion, and if the Government declines that suggestion, then private parties are left with complex and
uncertain litigation over damages. This would occur
even if (as here) the statute provides no indication at
all of any exception to full payment. In addition, given
the Federal Circuit’s role as the appellate court for the
Court of Federal Claims, its decision will affect many,
if not most, of the cases challenging Government nonpayment. Indeed, the effect in this case alone is
staggering, as the Government has conceded that
failure to make CSR payments will actually cost
taxpayers $194 billion more over the next ten years,
based on efforts to fix indirectly the lack of payments
that Congress required. See Supplemental Brief for
Appellant at 4, Community Health, No. 2019-1633,
Dkt. 56 (Fed. Cir. Feb. 10, 2020). These problematic
results, flowing from an unmoored decision that fails
to confront contrary language from this Court,
warrants this Court’s review.

5
OPINION BELOW
The order of the U.S. Court of Appeals for the
Federal Circuit is not reported, but is reproduced at
App. 1a-2a.
JURISDICTION
The court of appeals issued its order and judgment
on September 30, 2020. The court of appeals denied
Common Ground’s petition for rehearing en banc on
December 16, 2020. This Court has jurisdiction under
28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions are as follows:
In the case of an eligible insured enrolled in a
qualified health plan—
(1) the Secretary shall notify the issuer of the
plan of such eligibility; and
(2) the issuer shall reduce the cost-sharing
under the plan at the level and in the manner
specified in subsection (c).
42 U.S.C. § 18071(a).
An issuer of a qualified health plan making
reductions under this subsection shall notify
the Secretary of such reductions and the
Secretary shall make periodic and timely
payments to the issuer equal to the value of
the reductions.
42 U.S.C. § 18071(c)(3)(A).

6
STATEMENT
A. Cost-Sharing Reductions Under The ACA
The ACA attempted to stabilize the health insurance market and decrease the cost of health insurance
by helping offset certain costs consumers must pay:
insurance premiums and out-of-pocket expenses. For
low-income insureds, the ACA did so by, inter alia,
establishing the Cost-Sharing Reduction (“CSR”)
program.
Section 1402 of the ACA requires QHP issuers to
reduce out-of-pocket costs for eligible insureds (whose
household income is below 250% of the poverty level)
by making CSR payments. “Cost-sharing” is defined
to include “deductibles, coinsurance, copayments, or
similar charges.” 42 U.S.C. § 18022(c)(3)(A)(i). QHP
issuers must reduce cost sharing for eligible insureds
who enroll in “silver plans” through the exchanges, id.
§ 18071(b)(1), and QHP issuers must offer at least one
“silver” plan in order to participate in the exchanges,
id. § 18021(a)(1)(C)(ii).
Section 1402 also requires the Secretaries of HHS
and the Treasury to reimburse QHP issuers for these
cost-sharing reductions: “An issuer of a qualified
health plan making reductions under this subsection
shall notify the Secretary of such reductions and the
Secretary shall make periodic and timely payments to
the issuer equal to the value of the reductions.” Id.
§ 18071(c)(3)(A) (emphasis added). The implementing
regulations further provide that the Government
make “advance” payments for the cost-sharing reductions QHP issuers must by law provide. See 45 C.F.R.
§ 156.430(b), (d), & (e).

7
B. The Government’s Non-Payments For CostSharing Reductions
Until October 2017, the Government made CSR
reimbursements as required by the ACA. On October
11, 2017, however, then-Attorney General Sessions
submitted a letter to the Department of Treasury
and HHS advising that the appropriation in 31 U.S.C.
§ 1324 could not be used to fund CSR reimbursements.
The next day, HHS announced that it would stop
making CSR reimbursements: “In light of [Attorney
General Session’s] opinion—and the absence of any
other appropriation that could be used to fund CSR
payments—CSR payments to issuers must stop, effective
immediately. CSR payments are prohibited unless
and until a valid appropriation exists.” Oct., 12, 2017
Mem. from E. Hargan to S. Verma re Payments to
Issuers for Cost-Sharing Reductions (CSRs). As of the
date of this petition, Common Ground and the other
members of the CSR class have not been reimbursed
for any CSR payments they made from October 2017
through the present.
C. The Suit At Issue
In 2017, Common Ground filed suit alleging that,
pursuant to the Tucker Act, the United States owes
QHP issuers back payments under the CSR provision
of the ACA. On April 17, 2018, the Court of Federal
Claims granted Common Ground’s motion to certify a
class of QHP issuers that were owed CSR reimbursements for the 2017 and/or 2018 benefit years. Common
Ground Healthcare Coop. v. United States, 137 Fed.
Cl. 630, 645 (2018). Ultimately, 101 plaintiffs chose to
opt in to the Common Ground CSR class action,
making this the largest CSR-related Tucker Act case
in the Nation. See Common Ground, No. 1:17-cv00877-MMS (Fed. Cl.), Dkt. Nos. 38, 60, 67, 69.

8
On February 15, 2019, the Court of Federal Claims
granted Common Ground’s motion for summary judgment. Common Ground, 142 Fed. Cl. 38, 53 (2019).
The court held that Section 1402 was “a moneymandating statute for Tucker Act purposes.” App. 31a
(citations omitted). The court also rejected the Government’s argument that the claims were barred because
the class would receive a “double recovery” if they
received CSR payments, since they also received
premium tax credits:
[U]nder the statutory scheme as it exists,
even if the government were making the
required cost-sharing reduction payments,
insurers could (to the extent permitted by
their state insurance regulators) increase their
silver-level plan premiums; in such circumstances, it could not credibly be argued that
the insurers were obtaining a double recovery
of cost-sharing reduction payments. While
the premium tax credit and cost-sharing
reduction provisions were enacted to reduce
an individual's health-care-related costs (to
obtain insurance and to obtain health care,
respectively), they are not substitutes for
each other.
App. 26a.
The United States appealed, and on January 28,
2020, the Federal Circuit stayed the appeal pending
the court’s disposition in Sanford Health Plan v. United
States, No. 2019-1290 (Fed. Cir.), and Community
Health. Order, Dkt. 12 at 2. On March 17, 2020,
Common Ground filed an amicus brief in Community
Health, arguing (inter alia) that plaintiffs’ claim was
for specific relief and that, even if it were for monetary

9
damages, the doctrine of mitigation did not apply. See
No. 2019-1633 (Fed. Cir.), Dkt. 64.
On August 14, 2020, the Federal Circuit issued
opinions in Sanford and Community Health. In Sanford,
the court held that section 1402 of the ACA “imposes
an unambiguous obligation on the Government to pay
money and that the obligation is enforceable through
a damages action in the Court of Federal Claims under
the Tucker Act.” Sanford Health Plan v. United
States, 969 F.3d 1370, 1372-73 (Fed. Cir. 2020). In
Community Health, the court held that the claim was
for monetary damages, not specific relief, because “the
type of relief that the insurers are seeking is best
characterized as ‘specific sums, already calculated,
past due, and designed to compensate for completed
labors,’” App. 62a n.6 (quoting Maine Community, 140
S. Ct. at 1330-31), and because “the Court of Claims
has no general power to grant equitable relief,” id.
(quotation marks and brackets omitted). The court
also held that the principle of mitigation applies,
based on common law and contract principles. App.
62a-74a. Thus, according to the Federal Circuit, if
(and to the extent that) state insurance regulators
approved increased premiums for silver-level plans
(“silver loading”) because of the non-payment of CSR
reimbursements, those increases should be used to
offset the plaintiffs’ damages. App. 74a-78a. And in
the Federal Circuit’s view, plaintiffs have the burden
of proving that in the “hypothetical ‘but for’ world” in
which the Government had met its obligation, the
silver loading would have occurred nonetheless. App.
78a (quotations omitted).
With the consent of the Government, Common Ground
moved for entry of judgment, and on September 30,
2020, the Federal Circuit entered judgment in this

10
case consistent with Community Health. App. 1a-2a.
The Federal Circuit “acknowledge[d] Common Ground’s
statement that its motion should not be understood as
‘necessarily’ agreeing ‘with the opinion in Community
Health,’ but rather ‘simply reflects the overlapping
issues’ between the appeals, and that ‘the United
States agrees with this proposal for entry of judgment
without prejudice to any challenges the parties may
bring in the future.’” App. 2a n.* (citations omitted).
On December 16, 2020, the Federal Circuit denied
Common Ground’s petition for rehearing en banc.
REASONS FOR GRANTING THE WRIT
I. THE FEDERAL CIRCUIT’S DECISION CONFLICTS WITH THIS COURT’S AND OTHER
CIRCUITS’ PRECEDENTS IN HOLDING
THAT A NONSTATUTORY MITIGATION
DEFENSE CAN REDUCE PAYMENTS THE
GOVERNMENT “SHALL MAKE”
In Maine Community, this Court held that the
Government must pay the amount the ACA requires
it to pay. Maine Community concerned the Risk
Corridors provision of the ACA, which stated that the
Government “shall pay” specified amounts to eligible
unprofitable healthcare plans. 140 S. Ct. at 1316.
This Court concluded that this statutory provision
“created an obligation neither contingent on nor
limited by the availability of appropriations or other
funds.” Id. at 1323. It then explained precisely what
remedy the plaintiffs had when the Government failed
to comply with this obligation: Plaintiffs “seek specific
sums already calculated, past due, and designed to
compensate for completed labors. The Risk Corridors
statute and Tucker Act allow them that remedy.” Id.
at 1331.

11
Moreover, Maine Community expressly held that
the specific payment amount required by the statute
could not be reduced:
Nor does the text suggest that the Secretary’s
payments to unprofitable plans pivoted on
profitable plans’ payments to the Secretary,
or that a partial payment would satisfy the
Government’s whole obligation. Thus, without
‘any indication’ that § 1342 allows the
Government to lessen its obligation, we must
‘give effect to [Section 1342’s] plain command.’
140 S. Ct. at 1321 (citation omitted) (alteration in
original). Simply put, “the statute meant what it said:
The Government ‘shall pay’ the sum that § 1342
prescribes.” Id.
The statutory provision at issue here was also
enacted as part of the ACA and contains virtually
identical “shall pay” language. A QHP issuer “making
reductions under this subsection shall notify the
Secretary of such [cost-sharing] reductions and the
Secretary shall make periodic and timely payments to
the issuer equal to the value of the reductions.” 42
U.S.C. § 18071(c)(3)(A) (emphases added). Thus, just
as in Maine Community, the Government has an
obligation to make the required payments, and the
remedy for non-payment is a suit under the Tucker Act
for the specific amount owed.
The Federal Circuit held, to the contrary, that the
plaintiffs’ remedy was not the unreceived payments,
but the damage to the plaintiffs as compared to the
“hypothetical ‘but for’ world” in which the payments
had been made. App. 78a. In reaching this conclusion,
the court ignored the language in Maine Community
quoted above. Instead, the court held that “[t]he

12
available remedy is defined by analogy to contract law
where the statute does not provide its own remedies
for government breach.” App. 62a. However, Maine
Community never analogized the claim or remedy to
those provided under contract law. In short, the
Federal Circuit defied the pertinent language in
Maine Community and undermined its fundamental
principle that the Government can be held to its full
statutory payment obligations. This conflict alone
warrants certiorari, given the importance of the issue,
as discussed infra Part II.
More generally, the importation of a mitigationbased contract law principle to reduce the payments
required by statute conflicts with well-established law
in three ways: (a) the claim is properly considered one
for specific relief under the statute, not monetary
damages subject to mitigation; (b) even if considered
monetary damages, those damages are defined by the
statute itself; and (c) mitigation does not apply to an
absolute obligation to pay.
A. The Decision Below Conflicts With
Precedents That Statutory Payment
Requirements Are Claims For Specific
Relief
1. This Court has held that a statute requiring a
payment by the Government creates both the right to
the money at issue and a Tucker Act remedy for
specific relief in the form of that same money. As
noted, that was the essential holding of Maine
Community. It is also consistent with what this Court
held in Bowen v. Massachusetts, 487 U.S. 879 (1988).
There, the plaintiffs sued to enforce section 1396b(a)
of the Medicaid Act, which provides that the Secretary
“shall pay” certain amounts for appropriate Medicaid
services. Id. at 900. Bowen held that this “is not a suit

13
seeking money in compensation for the damage
sustained by the failure of the Federal Government to
pay as mandated; rather, it is a suit seeking to enforce
the statutory mandate itself, which happens to be one
for the payment of money.” Id. (emphasis in original).
This Court explained the distinction: “Damages are
given to the plaintiff to substitute for a suffered loss,
whereas specific remedies are not substitute remedies
at all, but attempt to give the plaintiff the very thing
to which he was entitled.” Id. at 895 (quotation marks
omitted). Thus, where (as in Bowen) the plaintiff “is
seeking funds to which a statute allegedly entitles it,
rather than money in compensation for the losses . . .
suffered by virtue of the withholding of these funds,”
“the nature of the relief sought” is “specific relief, not
relief in the form of damages.” Id. at 901 (quotation
marks omitted).
To be sure, Maine Community distinguished Bowen
in finding a Tucker Act remedy appropriate, 140 S. Ct.
at 1330-31, but its holding is fully consistent with
Bowen’s characterization of a statutory “shall-pay”
obligation as lending itself to a claim for specific relief
for the amount specified in the statute, as opposed to
a damages claim subject to mitigation. This Court
held that the “remedy” that the ACA and Tucker Act
allow are “specific sums already calculated.” 140 S. Ct.
at 1331. In addition, Maine Community referred to the
remedy in terms of enforcing the obligation to make
the required payments: “[D]id §1342 of the Affordable
Care Act obligate the Government to pay participating
insurers the full amount calculated by that statute?
. . . [M]ay petitioners sue the Government under
the Tucker Act to recover on that obligation? Because
our answer to each is yes, we reverse.” 140 S. Ct.
at 1319 (emphases added); see also id. at 1331
(“Congress . . . requir[ed] the Federal Government to

14
make payments under § 1342’s formula. . . . [P]etitioners
may seek to collect payment through a damages action
in the Court of Federal Claims.”). An action to enforce
the obligation to pay and to “collect payment” of
“specific sums” is the very definition of specific relief.1
The Federal Circuit’s opinion conflicts with these
precedents. Plaintiffs are entitled to unpaid CSR
reimbursements under the ACA’s plain terms. The
language “shall make periodic and timely payments”
of set amounts, 42 U.S.C. § 18071(c)(3)(A), is materially
identical to the language at issue in Maine Community
(“the Secretary shall pay to the plan an amount equal
to” a certain calculated amount, 42 U.S.C. § 18062(b))
and in Bowen (“the Secretary . . . shall pay to each
State which has a plan approved” the amounts specified,
42 U.S.C. § 1396b(a)). Moreover, Bowen’s reasoning is
directly on point: Plaintiffs here do not seek a substitute for the unmade CSR reimbursements, but rather
for the Government to meet its obligation to make the
payments themselves. That is the “very thing to which
[Plaintiffs were] entitled,” which constitutes a claim
for specific relief. See Bowen, 487 U.S. at 895 (quotation
marks omitted).
The Federal Circuit provided little explanation for
refusing to recognize that a claim to enforce a statutory
“shall pay” obligation is one for the specific relief
1

While Maine Community referred to the claim as one for
“damages,” it did so in the context of holding Tucker Act jurisdiction existed because the case was a “damages action in the Court
of Federal Claims.” 140 S. Ct. at 1331. As discussed infra at 1516, that jurisdictional holding is controlling here, but it does not
imply that the remedy is for anything other than the specific
sums required to be paid under the statute. And this Court did
not suggest that it was considering “damages” in opposition to
specific relief.

15
required by the statute. The opinion did not address
whether the money sought is a substitute for or the
very thing to which Plaintiffs are entitled. Instead,
the Federal Circuit’s reasoning was based on a misreading of Maine Community. According to the Federal
Circuit, “the Supreme Court made clear that the type
of relief that the insurers are seeking is best characterized as ‘specific sums, already calculated, past due,
and designed to compensate for completed labors.’”
App. 62a n.6 (quoting Maine Community, 140 S. Ct. at
1330-31). However, as noted above, a claim for “specific
sums” is a claim for “specific relief.” The Federal Circuit
seemed to suggest that, because Maine Community
mentions “compensat[ion],” it must mean monetary
damages. But the Maine Community language mirrors
the language Bowen used when describing specific
relief—and distinguishing monetary damages. See
Bowen, 487 U.S. at 900 n.31 (“The jurisdiction of the
Claims Court, however, is not expressly limited to
actions for ‘money damages,’” but include “statutes
that provide compensation for specific instances of
past injuries or labors . . . .”). Indeed, there is a critical
distinction between a statute that requires specific
payments as compensation for past labors (which gives
rise to a claim for specific relief), and a plaintiff seeking
compensation not specifically required by statute as a
substitute for the Government’s failure to meet its
obligations. The Federal Circuit missed this distinction
in treating this Court’s use of the word “compensation”
as precluding specific relief in Maine Community.
The Federal Circuit’s only other explanation for
denying that the claim here is for specific relief is that
this supposedly would preclude Tucker Act jurisdiction,
App. 62a n.6, but that holding also conflicts with this
Court’s precedents. According to the Federal Circuit,
the claim here cannot be for specific relief because

16
“‘the Court of Claims has no [general] power to grant
equitable relief.’” Id. (quoting Bowen, 487 U.S. at 905)
(brackets in original). It is a mistake, however, to
equate “equitable relief” and “specific relief”: “Bowen’s
interpretation . . . hinged on the distinction between
specific relief and substitute relief, not between equitable
and nonequitable categories of remedies.” Dep’t of the
Army v. Blue Fox, Inc., 525 U.S. 255, 261-62 (1999).
Moreover, Bowen refutes any suggestion that the
Court of Federal Claims has jurisdiction only for claims
for monetary damages: “The jurisdiction of the Claims
Court . . . is not expressly limited to actions for ‘money
damages,’” and applies to “statutes that provide compensation for specific instances of past injuries or
labors.” 487 U.S. at 900 n.31; see also id. at 904 n.39.
In any event, Maine Community expressly held that
there is Tucker Act jurisdiction in circumstances
materially identical to those here. See 140 S. Ct. at
1329-31. The Federal Circuit ignored this holding in
Maine Community.
Finally, the specific-relief issue is dispositive here
because the Government has not disputed—nor could
it—that there is no legal basis for using a contractbased mitigation theory to reduce a claim for specific
relief. See, e.g., Mobil Oil Expl. & Producing Se., Inc.
v. United States, 530 U.S. 604, 623-24 (2000) (holding
in a Tucker Act case arising out of the Federal Circuit
that where a party is not seeking damages, but rather
restitution of payments, the plaintiff is entitled to the
payments owed regardless of whether it may have
profited from the breach); Amber Res. Co. v. United
States, 538 F.3d 1358, 1376 (Fed. Cir. 2008) (similar).
Indeed, the Federal Circuit’s entire approach of determining what would have happened had the payments
been made, to determine compensation for the harm of

17
not being paid, is irrelevant to a claim for specific
relief.
2. The Federal Circuit’s decision deepens an existing split among the circuits on the specific-relief issue.
The Second, Third, and D.C. Circuits have held that a
plaintiff’s claim to a statutory entitlement to certain
funds is a claim for specific relief. See Linea Area
Nacional de Chile S.A. v. Meissner, 65 F.3d 1034,
1042-43 (2d Cir. 1995) (holding that a claim for refund
of detention expenses of excludable aliens was for
specific relief based on 8 U.S.C. § 1356(h)(2)(A) (1994),
which directed that the “Secretary of the Treasury
shall refund” the relevant funds); Zellous v. Broadhead
Assocs., 906 F.2d 94, 98 (3d Cir. 1990) (holding that a
claim for reimbursement of excess rent from HUD was
for specific relief because “the tenants seek only
that to which they were entitled under the Brooke
Amendment”); Md. Dep’t of Human Res. v. HHS, 763
F.2d 1441, 1444, 1446 (D.C. Cir. 1985) (quoted in
Bowen and holding that a claim was for specific relief
because “Maryland is seeking funds to which a statute
allegedly entitles it” under 42 U.S.C. § 1397a(b)(2),
which provided that “[t]he Secretary shall then pay to
the State” various funds).
Moreover, there is significant confusion in the
circuits regarding whether a claim is for specific relief
where it seeks money statutorily required to be paid
but without a specific appropriation. For instance, in
a 2-1 decision, the Tenth Circuit held that a claim
is not for specific relief unless there is a specific
appropriation for it. See Modoc Lassen Indian Hous.
Auth. v. U.S. Dep’t of Hous. & Urban Dev., 881 F.3d
1181, 1198 (10th Cir. 2017) (“[T]o the extent the
district court ordered HUD to repay the Tribes ‘from
all available sources,’ we hold that those orders

18
constitute awards of money damages unless HUD has
at its disposal sufficient funds from the relevant yearly
appropriations”) (internal citation omitted).
The
Second Circuit has also held that a specific appropriation is necessary. See Cty. of Suffolk v. Sebelius, 605
F.3d 135, 141 (2d Cir. 2010) (“[I]n cases challenging
an agency’s expenditure of funds, the res at issue is
identified by reference to the congressional appropriation that authorized the agency’s challenged expenditure.
To seek funds from another source is to seek compensation rather than the specific property the plaintiff
aims to recover.”). The principal case on which the
Second Circuit relied was City of Houston, Tex. v. Dep’t
of Hous. & Urban Dev., 24 F.3d 1421, 1428 (D.C. Cir.
1994). But the D.C. Circuit later held that a plaintiff’s
“claim represents specific relief . . . not consequential
damages compensating for an injury” even where “the
[agency] no longer possesses the precise funds.” Am.’s
Cmty. Bankers v. F.D.I.C., 200 F.3d 822, 829-30 (D.C.
Cir. 2000); see also id. at 830 (distinguishing City of
Houston because, “[u]nlike Houston, [plaintiff here] is
not seeking compensation for economic losses suffered
by the government's alleged wrongdoing; Bankers wants
the FDIC to return that which rightfully belonged to
Bankers’s member institutions in the first place”).
The requirement of a specific appropriation to
determine whether a claim is for specific relief has no
basis in this Court’s precedents. This Court has
always considered only the nature of the relief, not the
source of the appropriation, in deciding whether a
claim is for specific relief. See Bowen, 487 U.S. at 919
n.3 (Scalia, J., dissenting) (“Respondent seeks fungible
funds, not any particular notes in the United States
Treasury.”); Modoc Lassen, 881 F.3d at 1201 (Matheson,
J., concurring in part and dissenting in part) (“[U]nder
the Supreme Court’s cases, the distinction between

19
specific and substitutionary relief turns on the nature
of the relief, not on the source of funds.”). Indeed, in
Modoc, the Government told this Court that the Tenth
Circuit’s reasoning was limited to relief that concerned
payment from funds appropriated for use in future
years, and that (in contrast) “[a]n order that required
[the agency] to pay to petitioners the particular funding
that [the agency] wrongfully withheld . . . would constitute specific relief.” Brief in Opposition at 12, Fort
Peck Housing Auth. v. Dep’t of Housing & Urban
Development, No. 17-1353 (July 2018) (quotation
marks and brackets omitted).
B. The Decision Below Conflicts With
Precedents That The Statute Rather
Than Background Contract Law Defines
The Remedy For Failure To Pay
1. Regardless of whether the claim is deemed one
for specific relief, the statute defines the remedy as the
CSR reimbursements themselves. As discussed above,
Maine Community held that, where a statute requires
the Government to pay a certain amount, it must pay
that amount absent “any indication that [the statute]
allows the Government to lessen its obligation.” 140
S. Ct. at 1321 (quotation marks omitted). This is simple
statutory construction: where Congress states that
the Government “shall pay” a certain amount, it must
pay that amount, not some lesser amount depending
on the circumstances. It also “reflect[s] a principle as
old as the Nation itself: The Government should honor
its obligations.” Id. at 1331.
The opinion below conflicts with Maine Community
in holding that full payment is not required and that
the Government’s obligation can be reduced for reasons
not mentioned in the statute. The Federal Circuit did
not discuss the relevant language in Maine Community,

20
instead asserting that Maine Community did not
“resolve[] this question.” App. 58a. Nor did the
Federal Circuit look to the statute itself as a source for
its suggestion that the required payments could be
reduced. The ACA here is just as unequivocal as it was
in Maine Community about the requirement to pay
and the amount of those payments: the “Secretary
shall make periodic and timely payments to the issuer
equal to the value of the reductions.” 42 U.S.C.
§ 18071(c)(3)(A) (emphases added). The nature of the
potential offset here is impossible to reconcile with the
statute. That is because the potential deduction is
based solely on an amount that the statute requires to
be paid in addition to CSR reimbursements. The ACA
states that, entirely apart from the CSR reimbursements, QHP issuers are entitled to a “[r]efundable
[tax] credit for coverage under a qualified health plan.”
26 U.S.C. § 36B. Thus, the statute requires both CSR
reimbursements and premium tax credits, not remotely
suggesting that the latter can offset the former.
Rather than relying on the statute, the Federal
Circuit’s decision rests on the assumption that the
statute includes an implied contract-law defense of
mitigation. However, as explained in Maine Community,
the statute itself creates the remedy and defines the
remedy. And in countless cases dealing with Government
payments over the course of centuries, there is no
precedent for allowing generic contract-law principles
to reduce the Government’s statutorily required
payments.2 There is accordingly no reason to believe
2

The Federal Circuit relied only on a few Court of Federal
Claims cases supposedly “limit[ing] damages in suits against the
government under the Back Pay Act, 5 U.S.C. § 5596.” App. 62a.
But as the Federal Circuit itself recognized (App. 63a n.8), the
Back Pay Act has an express provision for offset—unlike the

21
that Congress intended for courts to imply a
mitigation-based reduction to CSR reimbursements.
When Congress wants to allow for reductions in
payments based on such principles, it does so expressly.
See, e.g., 42 U.S.C. § 2000e-5(g)(1) (for back pay under
Title VII of the Civil Rights Act, the statute requires
the court deduct “interim earnings or amounts earnable
with reasonable diligence by the person or person
discriminated against” from the award of damages).
Congress chose not to do so here. To uphold the
Federal Circuit would require this Court to rewrite the
clear statutory command that the Government “shall
make periodic and timely payments to the issuer equal
to the value of the reductions,” 42 U.S.C. § 18071(c)(3)(A),
and provide instead that the Government “shall see
what happens, and if it turns out the QHP issuers
are doing well enough without the payments, the
Government does not have to make the payments.”
But there is no indication of any congressional intent
for such a radical and substantial rewriting of the
statute. See, e.g., Cherokee Nation of Okla. v. Leavitt,
statute here. See 5 U.S.C. § 5596(b)(1) (An employee “(A) is
entitled, on correction of the personnel action, to receive . . . —
(i) an amount equal to all or any part of the pay, allowances, or
differentials, . . . less any amounts earned by the employee . . . .”).
The cases the Federal Circuit cites are unique to the military
back pay situation, given the “principle that the Government is
entitled to the complete services and undivided attention of its
employee during working hours.” Craft v. United States, 589 F.2d
1057, 1068 (Ct. Cl. 1978). In other words, a military employee
cannot as a matter of law obtain both military pay and outside
earnings (unless specifically exempted). See id.; Silver v. United
States, 551 F.2d 295, 297 (Ct. Cl. 1977). In any event, Craft
recognized it was not applying “setoff . . . or even mitigation of
damages in the traditional sense,” 589 F.2d at 1068, and provides
no basis for the Government’s attempt to apply mitigation here.

22
543 U.S. 631, 640 (2005) (rejecting the Government’s
argument that it could evade the statutory requirement to pay certain “contract support costs” because
“we have found no indication that Congress believed
or accepted the Government’s current claim that . . .
tribes, not the Government, should bear the risk that
an unrestricted lump-sum appropriation would prove
insufficient to pay all contractors”) (emphasis removed).
Finally, the Federal Circuit erred (App. 60a-61a) in
relying on Barnes v. Gorman, 536 U.S. 181 (2002), and
Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S. 274
(1998), for the proposition that contract-law rules are
generally applicable to statutory payment provisions.
In Barnes, this Court expressly stated that “we have
been careful not to imply that all contract-law rules
apply to Spending Clause legislation,” and the only
one it applied there was the rule that “a recipient may
be held liable to third-party beneficiaries for intentional
conduct that violates the clear terms of the relevant
statute.” 536 U.S. at 186-87 (emphasis removed). In
Gebser, the Court likewise held only that a recipient of
federal funds could be held liable for violating the
statutory conditions for receipt of those funds. 524
U.S. at 287. And even in applying this contract
principle, the Court determined liability based not on
general principles of constructive notice or respondeat
superior, but on actual notice of misconduct because
that was more consistent with the statute. Id. at 28889. In short, a statute may be analogous to a contract
in certain respects, but contract principles apply only
to the extent they are consistent with the statute.
Thus, the question is ultimately one of the statutory
language, which here suggests no mitigation exception
to the Government’s payment requirement.

23
2. The Federal Circuit’s holding that contractual
defenses should be inferred to reduce the remedy for
non-payment of the Government’s statutory obligations also creates a circuit conflict. Several circuits
have held that contractual rules do not apply in this
statutory context. For instance, the Tenth Circuit held
that “the rules that traditionally govern contractual
relationships don’t necessarily apply in the context of
federal grant programs.” Modoc, 881 F.3d at 1194.
The Ninth Circuit similarly rejected as “problematic”
“the whole notion of importing contract doctrines into
an area that is a complex statutory and regulatory
scheme” because “[u]pon joining the Medicare program
. . . the hospitals received a statutory entitlement, not
a contractual right.” PAMC, Ltd. v. Sebelius, 747 F.3d
1214, 1221 (9th Cir. 2014) (quotation marks omitted);
see also Md. Dep’t of Human Res. v. Dep’t of Health
& Human Servs., 762 F.2d 406, 409 (4th Cir. 1985)
(rejecting argument to apply “contractual principles”
of impossibility of performance to federal grant program, which is instead “governed by the applicable
statute[s] and implementing regulations”).
The Federal Circuit’s attempt (App. 61-62a n.5) to
distinguish these precedents is unavailing. In particular,
the Federal Circuit concluded that contract-law
principles apply only where the statute “impose[s] an
affirmative obligation or condition in exchange for
federal funding.” App. 59a (quotation marks and
brackets omitted). However, all of the cases cited
above imposed obligations or eligibility criteria for the
payments at issue. See Modoc, 881 F.3d at 1186;
PAMC, 747 F.3d at 1217-18; Md. Dep’t of Human Res.,
762 F.2d at 407. Regardless, the question is whether
the Government intended to limit its obligations, and
the Federal Circuit’s holding that it did so implicitly
based on mitigation marks an entirely new rule of law.

24
C. The Decision Below Conflicts With
Precedents That Mitigation Does Not
Apply To An Unrestricted Payment
Obligation
Even assuming contract law principles could be
implied in the statute, the principle of mitigation cannot
reduce damages for breach of an absolute obligation to
pay. This Court has long held that, for an “agreement
to pay . . . , a recovery may be had as soon as there is
a breach of the contract, and the measure of the
damages is the full amount agreed to be paid.” Wicker
v. Hoppock, 73 U.S. (6 Wall.) 94, 99 (1867).
Moreover, every circuit court to consider the issue
has held that the common law doctrine of mitigation
for contractual damages does not apply to an absolute
promise to pay. For instance, the Seventh Circuit has
held that, where a “plaintiff simply claims the amount
. . . owed to it under the contract,” the breaching
party’s “obligation to pay these [amounts] would in no
way be affected by the amount of income [plaintiff] was
able to produce from other sources.” Publishers Res.,
Inc. v. Walker-Davis Publ’ns, Inc., 762 F.2d 557, 560
(7th Cir. 1985) (holding plaintiff “did not have any
duty to mitigate”). Similarly, the Tenth Circuit has
held that there is “no duty to mitigate” where “under
the contract plaintiff’s right to severance pay was
absolute.” McBride v. Mkt. St. Mortg., 381 F. App’x
758, 773 n.21 (10th Cir. 2010) (quotation marks omitted);
see also Rice’s Lucky Clover Honey, LLC v. Hawley, 700
F. App’x 852, 863 (10th Cir. 2017) (“[T]here is no duty
to make a deduction [of the amount avoided through
mitigation] when the contract specifies the amount
owed to the injured party.”). The Eighth and Eleventh
Circuits are in accord. See Branch Banking & Tr. Co.
v. Lichty Bros. Constr., 488 F. App’x 430, 434 (11th Cir.

25
2012) (“Where the [contracts in question] contain
absolute promises to pay, there is no duty to mitigate
damages.”); Ross v. Garner Printing Co., 285 F.3d
1106, 1113-14 (8th Cir. 2002) (recognizing no duty to
mitigate exists where contract entitled plaintiff to
“payment of all compensation remaining under the
terms of employment”).
The Federal Circuit’s decision here conflicts with
this case law. The statute here, by its plain terms,
provides an absolute obligation to pay: the Government
“shall make . . . payments,” and those payments must
be “equal to the value of the reductions, ” without any
caveats or exceptions. 42 U.S.C. § 18071(c)(3)(A).
Thus, because QHP issuers are entitled to CSR reimbursements under the absolute terms of the ACA,
those payments may not be reduced by future benefits
QHP issuers receive.
The cases the Federal Circuit cites (App. 71a)
regarding the general duty to mitigate do not involve
breaches of contractual obligations to pay specific
amounts, as is the case here. See Kansas Gas & Elec.
Co. v. United States, 685 F.3d 1361, 1364-66 (Fed. Cir.
2012) (damages for costs to deal with nuclear waste
based on Government’s breach of obligation to dispose
of it); LaSalle Talman Bank, F.S.B. v. United States,
317 F.3d 1363, 1371 (Fed. Cir. 2003) (damages for
projected profits lost from Government’s breach based
on forced sale of bank). These cases establish only
that outside the context of payments, mitigation is
considered in measuring damages. But for payments,
no such measurement need occur because the lack of
payment itself is the damage. Indeed, the damages for
breach of contract are not a measure of everything that
would be different in the but-for world, absent the
breach. It is a measure of the damages under the

26
contract, and where the damages are the lack of
payment, the payment itself comprises the damages.
See Publishers Res., 762 F.2d at 560 (“[P]laintiff
simply claims the amount of commissions owed to it
under the contract; [the defendant’s] obligation to pay
these commissions would in no way be affected by the
amount of income [the plaintiff] was able to produce
from other sources.”). Thus, because Plaintiffs are
entitled to CSR reimbursements under the absolute
terms of the ACA, those payments may not be reduced
by future benefits Plaintiffs may receive.
II. THE ISSUE IS EXTRAORDINARILY
IMPORTANT AND WARRANTS THIS
COURT’S REVIEW
The Federal Circuit’s new rule, whereby the Government need not pay its full statutory obligations, has
enormous and troubling consequences for the Nation’s
healthcare system and in countless future cases affecting government contractors far beyond the healthcare
context here.
1. The Federal Circuit’s approach distorts the proper
functioning of the ACA, as Congress intended and
expressly stated. There is no question that the statute
requires Government payment of CSR reimbursements and that there was no provision allowing for the
non-payment of those obligations. While the Federal
Circuit posits that silver loading has offset some of the
harm to QHP issuers, the result for the healthcare
system as a whole is catastrophic. According to the
Government itself, if it continues non-payment in
defiance of section 1402’s mandate, taxpayers will pay
$194 billion more over the next ten years than if the
Government had simply made the payments it was
required to make. See Supplemental Brief for Appellant
at 4, Community Health, No. 2019-1633, Dkt. 56 (Fed.

27
Cir. Feb. 10, 2020) (“The CBO also projected that
federal spending would increase by $194 billion between
2017 and 2026 if cost-sharing reductions were not paid
directly.”). In litigation over the CSR program, the
House of Representatives also noted that a failure to
make payments in a way that provided certainty about
the “existence and amount of payments” would be
“inefficient and destabilizing,” and “would also inevitably
lead to increased premiums—and correspondingly
greater federal expenditures,” even if Congress ultimately
appropriated funds for the payments. Brief for
Defendants at 23, United States House of Representatives
v. Burwell, 2015 WL 9316243 (D.D.C. Dec. 2, 2015)
(No. 1:14-cv-01967), ECF No. 55-1. The severity of the
consequences for taxpayers—without any plausible
statutory basis—warrants this Court’s review.3
2. Furthermore, the Federal Circuit’s creation of a
novel rule whereby the Government now can pay less
than the amount required by statute has substantial
and troubling implications outside the context of this
case.
3

The Federal Circuit focuses (App. 65a) on the supposed
windfall to QHP issuers if they are allowed to recover the required
payments from the Government, but this is factually incorrect.
The ACA prevents QHP issuers from enjoying excessive profits
for any benefit year. Specifically, the statute establishes a regime
around an issuer’s medical loss ratio (“MLR”), wherein QHP
issuers must provide a rebate to enrollees if they spend less than
80% of their premiums on incurred claims and medical costs in a
benefit year. 45 C.F.R. § 158.210(c). CSR payments must be
deducted from the issuer’s incurred claims, id. § 158.140(b)(1)(iii),
so if QHP issuers’ collections in these cases lower their MLR for
2017 or 2018, insurers may be required by law to provide a rebate
to their insureds. Id. Thus, it is insureds that will enjoy any
supposed “windfall” from these cases. Regardless, the bottom line
is that the statute itself requires the CSR reimbursements.

28
There are an enormous number of statutes with
language similar to the statutory provision here. See
Bowen, 487 U.S. at 900 n.31 (“There are, of course,
many statutory actions over which the Claims Court
has jurisdiction that enforce a statutory mandate for
the payment of money rather than obtain compensation for the Government’s failure to so pay.”); Maine
Community, 140 S. Ct. at 1333 (Alito, J., dissenting)
(“[T]he phrase the ‘Secretary shall pay’—the language
that the Court construes as creating a cause of
action—appears in many other federal statutes.”).
While Maine Community questioned how common
such statutes were without an appropriation, see id. at
1329, there is no question that such statutes are
common with an appropriation, see id. at 1322 n.7.
And here, the question regarding the remedy does not
depend on the presence or absence of an appropriation
provision. Rather, the question whether the Government
is entitled to pay less than statutorily required based
on a defense of mitigation can arise for any statutory
provision that requires the Government to make certain
payments. And the opinion here would seemingly
apply to any claim for payment based on a statute
because the Federal Circuit’s reasoning is not limited
to any peculiarities of the ACA.
Furthermore, the Federal Circuit’s ruling provides
the Government with enormous incentives not to
make required statutory payments. Under the Federal
Circuit’s approach, the Government can simply refuse
to pay what a statute says it “shall pay,” in the hope
that mitigation will allow it to pay less in the future.
That incentive is especially strong because of the
extreme nature of the mitigation defense that the
Federal Circuit endorsed. Under the Federal Circuit’s
view, the burden is on the party that did not receive
the payment to prove the position it would have

29
occupied in the hypothetical, but-for world where the
payment had been made. App. 76a. As the Federal
Circuit recognizes, this is “necessarily a fact-intensive
task.” App. 74a. Moreover, the Federal Circuit’s theory
of mitigation includes effects from the actions of third
parties (here, silver loading based on actions of state
insurance regulators). App. 75a-76a. The result is
that proving damages will be an onerous task, where
many plaintiffs will inevitably struggle to prove precisely
how the but-for world would have evolved and therefore
what payment they are entitled to, despite the statute’s
direction that they are entitled to full payment.
The consequences of such a scheme are problematic
and harmful. First, it defies the statutes themselves.
Rather than paying the amount stated by Congress,
the Government pays less, even in the absence of any
such congressional intent. Second, it undermines
private parties’ ability to rely on the Government to
meet its statutory obligations. There is now no
guarantee that the Government will pay, and when it
fails to do so, recovery will be uncertain at best. Third,
it creates complex and prolonged litigation in countless
cases because, as noted above, disproving mitigation
will be an intensively fact-specific task. Fourth, it
allows the executive branch to subvert congressionally
enacted statutory programs. In particular, any statutory
scheme that depends on Government payments now
can be thwarted by the simple expedient of refusing to
pay. Even if the party entitled to that payment brings
suit, that litigation often will take years and may
never allow for full recovery.
In addition, all of these results are exacerbated by
the outsized role of the Federal Circuit in enforcing
Government obligations. Because the Federal Circuit
hears all appeals from the Court of Federal Claims, its

30
new rule will govern in many, if not most, of the cases
raising this issue. And given that the Federal Circuit
already received (and ignored) this Court’s guidance
on the remedy issue in Maine Community, further
percolation is pointless.
This case (along with
Community Health, No. 20-1162 (petition for certiorari
filed Feb. 19, 2021)) squarely raises the issue and is an
ideal vehicle to resolve the question presented.
In short, as this Court recognized in Maine
Community, the proper functioning of the Government
requires that the Government be held to its obligations. The Federal Circuit’s ruling undermines that
fundamental principle and thus warrants this Court’s
review.
3. Finally, the particular legal issues on which the
Federal Circuit departed from precedents of this Court
and other circuits also have wide-ranging implications.
First, whether a statute stating that the Government
“shall pay” certain amounts gives rise to a claim for
specific relief under the statute is of extraordinary
importance. As noted above, this “shall pay” language
is commonly found in many statutes. The appropriate
remedy for a breach of the statutory obligation that
language creates thus has substantial importance,
and the Federal Circuit’s conclusion that a request for
money that the Government “shall pay” is not for
specific relief under the statute would be a substantial
departure from the current state of the law.
Second, the issue of whether contractual damages
principles should be incorporated into the remedies for
non-payment of statutory obligations has broad
applicability. Allowing common law principles for
enforcement of contracts to be imported wholesale into
statutory schemes would mark a substantial change in
the law. And it would raise serious questions about

31
whether other contract-law principles (e.g., reliance
damages, election of remedies, etc.) are also implicitly
incorporated into every statutory payment provision.
Third, the holding that mitigation applies to an
absolute obligation to pay would have troubling consequences in numerous cases. The Federal Circuit held
that this was a general rule of contract law, and as
such, it would seemingly apply to any contract. The
result (in conflict with every other circuit to consider
the issue) is that a contractual promise to pay becomes
contingent on future events—even when the contract
included no such contingency. And just as for the
Government in the statutory context, this result
threatens to undermine contractual obligations and
the well-established legal principle that a party must
pay what a contract requires him or her to pay.
CONCLUSION
The Court should grant the petition for certiorari.
Respectfully submitted,
STEPHEN A. SWEDLOW
ANDREW H. SCHAPIRO
QUINN EMANUEL URQUHART
& SULLIVAN LLP
191 North Wacker Dr.
Suite 2700
Chicago, IL 60606
DAVID M. COOPER
QUINN EMANUEL URQUHART
& SULLIVAN LLP
51 Madison Ave., 22nd Floor
New York, NY 10010

KATHLEEN M. SULLIVAN
Counsel of Record
J.D. HORTON
ADAM B. WOLFSON
QUINN EMANUEL URQUHART
& SULLIVAN LLP
865 S. Figueroa St.
10th Floor
Los Angeles, CA 90017
(202) 538-8000
katheensullivan@
quinnemanuel.com

Counsel for Petitioners
February 24, 2021

APPENDIX

1a
APPENDIX A
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2020-1286
————
COMMON GROUND HEALTHCARE COOPERATIVE, on
behalf of itself and all others similarly situated,
Plaintiff-Appellee
v.
UNITED STATES,
Defendant-Appellant
————
Appeal from the United States Court of
Federal Claims in No. 1:17-cv-00877-MMS,
Chief Judge Margaret M. Sweeney.
————
ON MOTION
————
ORDER
Before REYNA, WALLACH, and CHEN, Circuit Judges.
REYNA, Circuit Judge.
Common Ground Healthcare Cooperative moves
unopposed to lift the stay of proceedings and to enter
judgment in this appeal consistent with Community

2a
Health Choice, Inc. v. United States, Nos. 2019-1633, 2102, 2020 WL 4723757 (Fed. Cir. Aug. 14, 2020).*
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The motion is granted to the extent that the
judgment of the United States Court of Federal Claims
is affirmed in part, reversed in part, and remanded in
part consistent with the court’s decision in Community
Health.
(2)

Each side shall bear its own costs.
FOR THE COURT.

September 30, 2020
Date

*

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

The court acknowledges Common Ground’s statement that
its motion should not be understood as “necessarily” agreeing
“with the opinion in Community Health,” but rather “simply
reflects the overlapping issues” between the appeals, ECF No. 13
at 3, and that “the United States agrees with this proposal for
entry of judgment without prejudice to any challenges the parties
may bring in the future,” id. at 4.

3a
APPENDIX B
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
————
No. 17-877C
————
COMMON GROUND HEALTHCARE COOPERATIVE,
v.

Plaintiff,

THE UNITED STATES,
Defendant.
————
Affordable Care Act; Cost-Sharing
Reduction Payments; 42 U.S.C. § 18071;
Motion for Summary Judgment, RCFC 56;
Motion to Dismiss, RCFC 12(b)(6)
————
Filed: February 15, 2019
————
Stephen Swedlow, Chicago, IL, for plaintiff.
Christopher J. Carney, United States Department of
Justice, Washington, DC, for defendant.
————
OPINION AND ORDER
SWEENEY, Chief Judge
Plaintiff Common Ground Healthcare Cooperative
contends, for itself and on behalf of those similarly
situated, that the federal government ceased making
the cost-sharing reduction payments to which it and

4a
other insurers are entitled under the Patient Protection and Affordable Care Act (“Affordable Care Act”),
Pub. L. No. 111-148, 124 Stat. 119 (2010), and its
implementing regulations. Currently before the court
are plaintiff’s motion for summary judgment and
defendant’s cross-motion to dismiss for failure to state
a claim upon which relief can be granted. For the
reasons set forth below, the court finds that plaintiff
is entitled to recover the unpaid cost-sharing reduction reimbursements. Therefore, it grants plaintiff’s
motion and denies defendant’s motion.
I. BACKGROUND
A. The Affordable Care Act
Congress enacted the Affordable Care Act as part of
a comprehensive scheme of health insurance reform.1
See generally King v. Burwell, 135 S. Ct. 2480 (2015).
Specifically, the Act includes “a series of interlocking
reforms designed to expand coverage in the individual
health insurance market.” Id. at 2485. In conjunction
with these reforms, the Act provided for the establishment of an American Health Benefit Exchange
(“exchange”) in each state by January 1, 2014, to
facilitate the purchase of “qualified health plans” by
individuals and small businesses. 42 U.S.C. §§ 18031,
18041 (2012); accord King, 135 S. Ct. at 2485 (describing an exchange as “a marketplace that allows people
to compare and purchase insurance plans”). Qualified
health plans can be offered at four levels (bronze,
silver, gold, and platinum) that differ based on how

1

Seven days after enacting the Affordable Care Act, Congress
enacted the Health Care and Education Reconciliation Act
of 2010, Pub. L. No. 111-152, 124 Stat. 1029, which included
additional provisions related to health insurance reform.

5a
much of a plan’s benefits an insurer must cover under
the plan.2 42 U.S.C. § 18022(d)(1).
Among the reforms included in the Affordable Care
Act were two aimed at ensuring that individuals have
access to affordable insurance coverage and health
care: the premium tax credit enacted in section 1401
of the Act, 26 U.S.C. § 36B (2012), and the cost-sharing
reduction program enacted in section 1402 of the Act,
42 U.S.C. § 18071. “The premium tax credits and the
cost-sharing reductions work together: the tax credits
help people obtain insurance, and the cost-sharing
reductions help people get treatment once they have
insurance.” California v. Trump, 267 F. Supp. 3d 1119,
1123 (N.D. Cal. 2017).
1. Premium Tax Credit
The first of these two reforms, the premium tax
credit, is designed to reduce the insurance premiums
paid by individuals whose household income is
between 100% and 400% of the poverty line. See
26 U.S.C. § 36B(c)(1)(A); 42 U.S.C. § 18082(c)(2)(B)(i);
accord 26 C.F.R. § 1.36B-2(a) to (b) (2017); 45 C.F.R.
§ 156.460(a)(1) (2017). The Secretary of the Department of Health and Human Services (“Secretary of
HHS”) is required to determine whether individuals
enrolling in qualified health plans on an exchange are
eligible for the premium tax credit and, if so, to notify
the Secretary of the United States Department of the
Treasury (“Treasury Secretary”) of that fact. 42 U.S.C.
§ 18082(c)(1). The Treasury Secretary, in turn, is
2

For example, for a silver-level qualified health plan, insurers
are required to provide coverage for 70% of the benefits offered
under the plan. 42 U.S.C. § 18022(d)(1)(B). Insurers offering
qualified health plans on an exchange must offer at least one
silver-level plan and one gold-level plan. Id. § 18021(a)(1)(C)(ii).

6a
required to make periodic advance payments of the
premium tax credit to the insurers offering the qualified health plans in which the eligible individuals
enrolled. Id. § 18082(c)(2)(A). The insurers are required
to use these advance payments to reduce the premiums of the eligible individuals. Id. § 18082(c)(2)(B)(i);
see also 26 U.S.C. § 36B(f) (describing the process for
annually reconciling an individual’s actual premium
tax credit with the advance payments of the credit). To
fund the premium tax credit, Congress amended a
preexisting permanent appropriation to allow for the
payment of refunds arising from the credit. See 31
U.S.C. § 1324 (2012) (“Necessary amounts are appropriated . . . for refunding internal revenue collections
as provided by law . . . . Disbursements may be made
from the appropriation made by this section only
for . . . refunds due from credit provisions of [26 U.S.C.
§ 36B].”).
2. Cost-Sharing Reductions
The other reform, cost-sharing reductions, is designed to reduce the out-of-pocket expenses (such
as deductibles, copayments, and coinsurance3) paid
by individuals whose household income is between
100% and 250% of the poverty line. See 42 U.S.C.
§§ 18022(c)(3), 18071(c)(2); accord 45 C.F.R. §§ 155.305(g),
156.410(a). Insurers offering qualified health plans
are required to reduce eligible individuals’ costsharing obligations by specified amounts,4 42 U.S.C.
3

“The term ‘cost-sharing’ includes . . . deductibles, coinsurance, copayments, or similar charges,” but not “premiums, balance billing amounts for non-network providers, or spending for
non-covered services.” 42 U.S.C. § 18022(c)(3).
4

To be eligible for cost-sharing reductions, an individual must
enroll in a silver-level qualified health plan. 42 U.S.C. § 18071(b)(1).
Under a standard silver-level plan, insurers are required to

7a
§ 18071(a), and the Secretary of HHS is required to
reimburse the insurers for the cost-sharing reductions
they make, see id. § 18071(c)(3)(A) (“[T]he Secretary [of
HHS] shall make periodic and timely payments to the
issuer equal to the value of the reductions.”).
The Secretary of HHS is afforded some discretion in
the timing of the reimbursements: once he determines
which individuals are eligible for cost-sharing reductions, he must notify the Treasury Secretary “if an
advance payment of the cost-sharing reductions . . . is
to be made to the issuer of any qualified health plan”
and, if so, the time and amount of such advance
payment. Id. § 18082(c)(3). Pursuant to this authority,
the Secretary of HHS established a reimbursement
schedule by which the government “would make
monthly advance payments to issuers to cover
projected cost-sharing reduction amounts, and then
reconcile those advance payments at the end of the
benefit year to the actual cost-sharing reduction
amounts.” Patient Protection and Affordable Care Act;
HHS Notice of Benefit and Payment Parameters for
2014, 78 Fed. Reg. 15,410, 15,486 (Mar. 11, 2013) (to
be codified at 45 C.F.R. § 156.430); see also 45 C.F.R.
§ 156.430(b)(1) (“A [qualified health plan] issuer will
receive periodic advance payments [for cost sharing
reductions].”). The amount of the cost-sharing reduction payments owed to insurers is based on information provided to HHS by the insurers. See 45 C.F.R.
provide coverage for 70% of the benefits offered under the
plan. Id. § 18022(d)(1)(B). However, for eligible individuals, that
percentage increases to 73% (when household income is between
200% and 250% of the poverty line), 87% (when household income
is between 150% and 200% of the poverty line), or 94% (when
household income is between 100% and 150% of the poverty line).
Id. § 18071(c)(2).

8a
§ 156.430(c) (requiring insurers to report to HHS, “for
each policy, the total allowed costs for essential health
benefits charged for the policy for the benefit year,
broken down by . . . (i) [t]he amount the [insurer]
paid[,] (ii) [t]he amount the enrollee(s) paid[, and] (iii)
[t]he amount the enrollee(s) would have paid under the
standard plan without cost-sharing reductions”).
The Affordable Care Act did not include any
language appropriating funds to make the costsharing reduction payments.
3. Requirements for Insurers
To offer a health insurance plan on an exchange in
any given year––and become eligible to receive payments for the premium tax credit and cost-sharing
reductions––an insurer must satisfy certain requirements established by the Secretary of HHS. See, e.g.,
42 U.S.C. § 18041(a)(1) (authorizing the Secretary
of HHS to “issue regulations setting standards for
meeting the requirements under [title I of the Affordable Care Act] with respect to––(A) the establishment
and operation of Exchanges . . . ; (B) the offering of
qualified health plans through such Exchanges; . . .
and (D) such other requirements as the Secretary
determines appropriate”). The requirements include
(1) obtaining certification that any plan it intends
to offer is a qualified health plan, see, e.g., 45 C.F.R.
§§ 155.1000, .1010, 156.200; and (2) submitting rate
and benefit information before the open enrollment
period for the applicable year, see, e.g., id. §§ 155.1020,
156.210. In addition, in most circumstances, insurers
must make their qualified health plans available on
the exchanges for the entire year for which the plans
were certified. 45 C.F.R. § 156.272(a).

9a
B. Termination of Cost-Sharing Reduction Payments
On April 10, 2013, before the exchanges opened for
business, President Barack H. Obama submitted to
Congress his budget for fiscal year 2014. See Office of
Mgmt. & Budget, Exec. Office of the President, Fiscal
Year 2014 Budget of the United States Government to
Congress (2013). The budget included a request for a
line-item appropriation for cost-sharing reduction payments. See id. at App. 448; accord Ctrs. for Medicare
& Medicaid Servs., Dep’t of Health & Human Servs.,
Fiscal Year 2014 Justification of Estimates for Appropriations Committees 184 (2013). However, Congress
did not provide the requested appropriation. See
Consolidated Appropriations Act, 2014, Pub. L. No.
113-76, 128 Stat. 5; see also S. Rep. No. 113-71, at 123
(2013) (“The Committee recommendation does not
include a mandatory appropriation, requested by
the administration, for reduced cost sharing assistance . . . as provided for in sections 1402 and 1412 of
the [Affordable Care Act].”). In fact, it is undisputed by
the parties that Congress has never specifically appropriated funds to reimburse insurers for their costsharing reductions.5 It is further undisputed that
Congress has never (1) expressly prevented––in an
appropriations act or otherwise––the Secretary of
HHS or the Treasury Secretary from expending funds
to make cost-sharing reduction payments or (2)

5

Whether Congress will appropriate funds for cost-sharing
reduction payments in the future is an open question. Cf. Patient
Protection and Affordable Care Act; HHS Notice of Benefit and
Payment Parameters for 2020, 84 Fed. Reg. 227, 283 (Jan. 24,
2019) (“The Administration supports a legislative solution that
would appropriate [cost-sharing reduction] payments . . . .”).

10a
amended the Affordable Care Act to eliminate the costsharing reduction payment obligation.
Although Congress did not specifically appropriate
funds for cost-sharing reduction payments, the Obama
administration began making advance payments to
insurers for cost-sharing reductions in January 2014.
See Ctrs. for Medicare & Medicaid Servs., Dep’t of
Health & Human Servs., Guidance Related to Reconciliation of the Cost-Sharing Reduction Component of
Advance Payments for Benefit Years 2014 and 2015 27
(2016). It made the payments from “the same account
from which the premium tax credit” advance payments were made––in other words, from the permanent appropriation described in 31 U.S.C. § 1324.
Letter from Sylvia M. Burwell, Director of the Office
of Mgmt. & Budget, to Ted Cruz and Michael S. Lee,
U.S. Senators 4 (May 21, 2014), http://www.cruz.
senate.gov/files/documents/Letters/20140521_Burwell
_Response.pdf.
On November 21, 2014, the United States House of
Representatives (“House”) sued the Obama administration in the United States District Court for the
District of Columbia (“D.C. district court”) to stop the
payment of cost-sharing reduction reimbursements to
insurers. See generally U.S. House of Representatives
v. Burwell, No. 1:14-cv-01967-RMC (D.D.C. filed Nov.
21, 2014). The D.C. district court ruled for the House,
holding:
The Affordable Care Act unambiguously
appropriates money for Section 1401 premium tax credits but not for Section 1402
reimbursements to insurers. Such an appropriation cannot be inferred. None of Secretaries’ extra-textual arguments—whether based
on economics, “unintended” results, or legis-

11a
lative history—is persuasive. The Court will
enter judgment in favor of the House of
Representatives and enjoin the use of unappropriated monies to fund reimbursements
due to insurers under Section 1402. The
Court will stay its injunction, however,
pending appeal by either or both parties.
U.S. House of Representatives v. Burwell, 185 F. Supp.
3d 165, 168 (D.D.C. 2016). The Obama administration
appealed the ruling. See generally U.S. House of
Representatives v. Azar (“Azar”), No. 16-5202 (D.C.
Cir. filed July 6, 2016). However, the United States
Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”) stayed the appeal to allow Presidentelect Donald J. Trump and his future administration
time to determine how to proceed. See Mot. Hold
Briefing Abeyance 1-2, Azar, No. 16-5202 (Nov. 21,
2016); Order, Azar, No. 16-5202 (Nov. 21, 2016).
The Trump administration continued the previous
administration’s practice of making advance costsharing reduction payments to insurers. However, on
October 11, 2017, the United States Attorney General
sent a letter to the Treasury Secretary and the Acting
Secretary of HHS advising that “the best interpretation of the law is that the permanent appropriation
for ‘refunding internal revenue collections,’ 31 U.S.C.
§ 1324, cannot be used to fund the [cost-sharing
reduction] payments to insurers authorized by 42
U.S.C. § 18071.” Letter from Jefferson B. Sessions III,
U.S. Attorney General, to Steven Mnuchin, Sec’y of the
Treasury, and Don Wright, M.D., M.P.H., Acting Sec’y
of HHS 1 (Oct. 11, 2017), http://www.hhs.gov/sites/
default/files/ csr-payment-memo.pdf. Based on this
guidance, the Acting Secretary of HHS directed, the
following day, that “[cost-sharing reduction] payments

12a
to issuers must stop, effective immediately,” and that
such “payments are prohibited unless and until a
valid appropriation exists.” Memorandum from Eric
Hargan, Acting Sec’y of HHS,6 to Seema Verma,
Administrator of the Ctrs. for Medicare & Medicaid
Servs. (Oct. 12, 2017), http://www.hhs.gov/sites/de
fault/files/csr-payment-memo.pdf.
C. Reaction to the Termination of Cost-Sharing
Reduction Payments
The Trump administration’s termination of costsharing reduction payments did not come as a surprise
to insurers:
Anticipating that the Administration would
terminate [cost-sharing reduction] payments,
most states began working with the insurance companies to develop a plan for how to
respond. Because the Affordable Care Act
requires insurance companies to offer plans
with cost-sharing reductions to customers,
the federal government’s failure to meet its
[cost-sharing reduction] payment obligations
meant the insurance companies would be
losing that money. So most of the states set
out to find ways for the insurance companies
to increase premiums for 2018 (with open
enrollment beginning in November 2017) in a
fashion that would avoid harm to consumers.
And the states came up with an idea: allow
6

Eric Hargan was named Acting Secretary of HHS on October
10, 2017. See Press Release, The White House, President Donald
J. Trump Announces Intent to Nominate Personnel to Key
Administration Posts (Oct. 10, 2017), https://www.whitehouse.
gov/presidential-actions/president-donald-j-trump-announcesintent-nominate-personnel-key-administration-posts-22/.

13a
the insurers to make up the deficiency
through premium increases for silver plans
only. In other words, allow a relatively large
premium increase for silver plans, but no
increase for bronze, gold, or platinum plans.
As a result, in these states, for everyone
between 100% and 400% of the federal poverty level who wishes to purchase insurance
on the exchanges, the available tax credits
rise substantially. Not just for people who
purchase the silver plans, but for people who
purchase other plans too.
California, 267 F. Supp. 3d at 1134-35 (footnote
omitted). In other words, by raising premiums for
silver-level qualified health plans, the insurers would
obtain more money from the premium tax credit
program, which would help mitigate the loss of the
cost-sharing reduction payments.7 Accord id. at 1139
(agreeing with the states “that the widespread
increase in silver plan premiums will qualify many
people for higher tax credits, and that the increased
federal expenditure for tax credits will be far more
7

Notably, increasing silver-level qualified health plan premiums would not harm most consumers who qualify for the
premium tax credit because the credit increases as the premium
increases. See California, 267 F. Supp. 3d at 1134 (“[T]he amount
[of the premium tax credit] is based on the cost of the secondcheapest silver plan available on the exchange in your geographic
area, and then adjusted based on your income (that is, based on
where you fall on the spectrum between 100% and 400% of the
federal poverty level). So, if premiums for the second-cheapest
silver plan in your area go up, the amount of your tax credit will
go up by a corresponding amount. See 26 U.S.C. § 36B.”); see also
id. at 1122 (“[M]ost state regulators have devised responses that
give millions of lower-income people better health coverage
options than they would otherwise have had.”).

14a
significant than the decreased federal expenditure for
[cost-sharing reduction] payments”). This approach is
commonly referred to as “silver loading,” and many
states appear to have endorsed it, see id. at 1137
(“Even before the Administration announced its decision, 38 states accounted for the possible termination
of [cost-sharing reduction] payments in setting their
2018 premium rates. And now that the announcement
has been made, even more states are adopting [the]
strategy [of increasing silver-level plan premiums to
obtain additional premium tax credit payments].”
(footnote omitted)).
D. Other Litigation
While the states and insurers were working on ways
to mitigate the loss of cost-sharing reduction payments, the parties in the case on appeal at the D.C.
Circuit began discussing that case’s disposition. Joint
Status Report 1-2, Azar, No. 16-5202 (Nov. 30, 2017).
Ultimately, at the request of the parties, the D.C.
Circuit dismissed the appeal, Order, Azar, No. 16-5202
(May 16, 2018), and the D.C. district court vacated the
portion of its ruling in which it provided that
“reimbursements paid to issuers of qualified health
plans for the cost-sharing reductions mandated by
Section 1402 of the Affordable Care Act, Pub. L. 111148, are ENJOINED pending an appropriation for
such payments,” Order, Azar, No. 1:14-cv-01967-RMC
(May 18, 2018).
A separate lawsuit was filed by seventeen states
and the District of Columbia in the United States
District Court for the Northern District of California
(“California district court”) to compel the Trump
administration to continue making the advance costsharing reduction payments to insurers. See generally
California v. Trump, No. 3:17-cv-05895-VC (N.D. Cal.

15a
filed Oct. 13, 2017). The California district court
denied the states’ motion for a preliminary injunction.
California, 267 F. Supp. 3d at 1121-22, 1140. Eventually, the states requested a stay of the proceedings or,
alternatively, dismissal of the suit without prejudice,
explaining:
[S]taying the proceedings is warranted to
avoid disturbing the status quo given the
general success of the practice commonly
referred to as “silver-loading” which mostly
curbed the harm caused by the federal
government’s unjustified cessation of costsharing reduction (CSR) subsidies mandated
by Section 1402 of the Patient Protection and
Affordable Care Act (ACA). At the same time,
because of the real threat of the federal
government taking action to prohibit silverloading, the Court should retain jurisdiction,
thus allowing the Plaintiff States to expeditiously seek appropriate remedies from this
Court for the protection of their citizens.
Alternatively, if the Court determines that a
stay is not appropriate at this time, the
Plaintiff States respectfully request that the
Court dismiss the action without prejudice.
Mot. for Order Staying Proceedings or, in the
Alternative, Dismissing Action Without Prejudice 2,
California, No. 3:17-cv-05895-VC (July 16, 2018); cf.
HHS Notice of Benefit and Payment Parameters for
2020, 84 Fed. Reg. at 283 (“The Administration supports a legislative solution that would appropriate
CSR payments and end silver loading. In the absence
of Congressional action, we seek comment on ways in
which HHS might address silver loading, for potential
action in future rulemaking applicable not sooner than

16a
plan year 2021.”). The California district court dismissed the case without prejudice on July 18, 2018.
Order Dismissing Case Without Prejudice, California,
No. 3:17-cv-05895-VC (July 18, 2018).
E. Effect of Cost-Sharing Reduction Payment
Termination on Plaintiff
Plaintiff is a nonprofit corporation that offers qualified health plans on Wisconsin’s exchange.8 It began
offering qualified health plans on the exchange in
January 2014, continued to offer such plans in 2015,
2016, 2017, and committed to offering such plans in
2018. Plaintiff began receiving monthly advance costsharing reduction payments in January 2014 and, as
with every other insurer offering qualified health
plans on the exchanges, stopped receiving these payments effective October 12, 2017. Plaintiff estimates
that it is owed $12-13 million for 2017 and asserts that
because approximately 65% of its insured population
receives cost-sharing reductions, the unpaid amount
will have a significant effect on its finances. In
addition, plaintiff estimates that it will be owed costsharing reduction payments of approximately $60
million for 2018.
F. Procedural History
Plaintiff filed a complaint in this court on June 27,
2017, to recover, for itself and other insurers, unpaid
risk corridors payments for 2016.9 It then filed an

8

Aside from the estimated amounts of unpaid cost-sharing
reduction reimbursements, it appears that the facts in this subsection, which are derived from the allegations in plaintiff’s
amended complaint, are undisputed.
9

Proceedings on the risk corridors claim are currently stayed
pending final, nonappealable judgments in Moda Health Plan,

17a
amended complaint on November 22, 2017, to add a
claim to recover, for itself and other insurers, the costsharing reduction payments that the government has
not made for 2017 and 2018.10 In the latter claim,
plaintiff contends that the government violated the
statutory and regulatory mandate to make costsharing reduction payments to insurers.
The court certified a cost-sharing reduction class on
April 17, 2018. Thereafter, plaintiff moved for summary judgment on its cost-sharing reduction claim,
and defendant cross-moved to dismiss that claim. The
parties completed briefing, and after hearing argument on February 14, 2019, the court is prepared to
rule.11
Inc. v. United States, No. 16-649C, and Land of Lincoln Mutual
Health Insurance Co. v. United States, No. 16-744C.
10

A number of other insurers have filed suit in this court
seeking to recover unpaid cost-sharing reduction reimbursements. See, e.g., Local Initiative Health Auth. for L.A. Cty. v.
United States, No. 17-1542C (Judge Wheeler); Me. Cmty. Health
Options v. United States, No. 17-2057C (Chief Judge Sweeney);
Cmty. Health Choice, Inc. v. United States, No. 18-5C (Chief
Judge Sweeney); Sanford Health Plan v. United States, No. 18136C (Judge Kaplan); Montana Health Co-op v. United States,
No. 18-143C (Judge Kaplan); Molina Healthcare of Cal., Inc. v.
United States, No. 18-333C (Judge Wheeler); Health Alliance
Med. Plans, Inc. v. United States, No. 18-334C (Judge CampbellSmith); Blue Cross & Blue Shield of Vt. v. United States, No. 18373C (Judge Horn); Guidewell Mut. Holding Corp. v. United
States, No. 18-1791C (Judge Griggsby); Harvard Pilgrim Health
Care, Inc. v. United States, No. 18-1820C (Judge Smith).
11

The court has had the benefit of full briefing and oral
argument in three cost-sharing reduction cases: Common Ground
Healthcare Cooperative v. United States, No. 17-877C, Maine
Community Health Options v. United States, No. 17-2057C, and
Community Health Choice, Inc. v. United States, No. 18-5C. The
plaintiffs in all three cases allege that the government violated

18a
II. STANDARDS OF REVIEW
A. Motions for Summary Judgment
Plaintiff moves for summary judgment pursuant
to Rule 56 of the Rules of the United States Court
of Federal Claims (“RCFC”). Summary judgment is
appropriate when there is no genuine issue of material
fact and the moving party is entitled to a judgment as
a matter of law. RCFC 56(a); Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). A fact is material if it “might
affect the outcome of the suit under the governing
law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). An issue is genuine if it “may reasonably
be resolved in favor of either party.” Id. at 250. Entry
of summary judgment is mandated against a party
who fails to establish “an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Celotex Corp., 477 U.S. at 322.
Statutory construction is a “question[] of law amenable to resolution through summary judgment.” Stathis
v. United States, 120 Fed. Cl. 552, 561 (2015); accord
Anderson v. United States, 54 Fed. Cl. 620, 629 (2002)
(“The plaintiff’s entitlement . . . rests solely upon
interpretation of the cited statute and is thus
amenable to resolution by summary judgment.”), aff’d,
70 F. App’x 572 (Fed. Cir. 2003) (unpublished opinion).
B. Motions to Dismiss for Failure to State a
Claim Upon Which Relief Can Be Granted
Defendant cross-moves to dismiss plaintiff’s costsharing reduction claim for failure to state a claim
upon which relief can be granted pursuant to RCFC
the cost-sharing reduction statutes and regulations. Thus, in
ruling on the parties’ motions in this case, the court has considered the parties’ arguments in all three cases.

19a
12(b)(6). To survive such a motion, a plaintiff must
include in its complaint “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). In other words, a
plaintiff must “plead[] factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell
Atl. Corp., 550 U.S. at 556). Indeed, “[t]he issue is not
whether a plaintiff will ultimately prevail but whether
the claimant is entitled to offer evidence to support the
claims.” Scheuer v. Rhodes, 416 U.S. 232, 236 (1974),
overruled on other grounds by Harlow v. Fitzgerald,
457 U.S. 800, 814-19 (1982).
III. DISCUSSION
In seeking to recover the cost-sharing reduction
payments not made by the government, plaintiff contends that the government’s failure to make the
payments was a violation of the cost-sharing reduction
provisions of the Affordable Care Act and its
implementing regulations. Plaintiff further contends
that Congress’s failure to specifically appropriate
funds for cost-sharing reduction payments does not
suspend or terminate the government’s obligation to
make the payments. Defendant disagrees, arguing
that Congress expressed its intent that cost-sharing
reduction payments should not be made absent a
specific appropriation for that purpose by not appropriating funds for cost-sharing reductions in the
Affordable Care Act or thereafter. Consequently,
defendant contends, monetary damages––payable from
the Judgment Fund––are unavailable from this court.

20a
A. The Government Is Obligated to Make CostSharing Reduction Payments to Plaintiff
Notwithstanding the Absence of a Specific
Appropriation for That Purpose
To determine whether Congress intended the government to make cost-sharing reduction payments to
insurers, the court first turns to the language of the
Affordable Care Act. See Lamie v. U.S. Tr., 540 U.S.
526, 534 (2004) (“The starting point in discerning
congressional intent is the existing statutory text.”);
see also Conn. Nat’l Bank v. Germain, 503 U.S. 249,
253-54 (1992) (“[C]ourts must presume that a legislature says in a statute what it means and means in a
statute what it says there.”). In addition to evaluating
the specific provision of the Affordable Care Act establishing the cost-sharing reduction program, the court
must read that provision in the context of the
Affordable Care Act as a whole. See King v. St.
Vincent’s Hosp., 502 U.S. 215, 221 (1991) (following
“the cardinal rule that a statute is to be read as a
whole, since the meaning of statutory language, plain
or not, depends on context” (citation omitted));
Crandon v. United States, 494 U.S. 152, 158 (1990)
(“In determining the meaning of the statute, we look
not only to the particular statutory language, but to
the design of the statute as a whole and to its object
and policy.”); Kokoszka v. Belford, 417 U.S. 642, 650
(1974) (“When ‘interpreting a statute, the court will
not look merely to a particular clause in which general
words may be used, but will take in connection with it
the whole statute (or statutes on the same subject)
and the objects and policy of the law, as indicated by
its various provisions, and give to it such a construction as will carry into execution the will of the
Legislature . . . .’” (quoting Brown v. Duchesne, 60 U.S.
183, 194 (1856))); see also Chevron, U.S.A., Inc. v. Nat.

21a
Res. Def. Council, Inc., 467 U.S. 837, 843 n.9 (1984) (“If
a court, employing traditional tools of statutory construction, ascertains that Congress had an intention
on the precise question at issue, that intention is the
law and must be given effect.”); Kilpatrick v. Principi,
327 F.3d 1375, 1384 (Fed. Cir. 2003) (“[I]n determining
whether Congress has directly spoken to the point at
issue, a court should attempt to discern congressional
intent either from the plain language of the statute
or, if necessary, by resort to the applicable tools of
statutory construction[.]”). If congressional intent can
be ascertained from evaluating the text of the Affordable Care Act, then the court’s inquiry on this issue is
complete. See Conn. Nat’l Bank, 503 U.S. at 254.
The statutory provision governing cost-sharing
reductions sets forth an unambiguous mandate:
“the Secretary [of HHS] shall make periodic and
timely payments” to insurers “equal to the value of
the reductions” made by the insurers. 42 U.S.C.
§ 18071(c)(3)(A); accord Montana Health Co-op v.
United States, 139 Fed. Cl. 213, 218 (2018)12 (“[T]he
statutory language clearly and unambiguously imposes an obligation on the Secretary of HHS to make
payments to health insurers that have implemented
cost-sharing reductions on their covered plans as
required by the [Affordable Care Act].”); see also SAS
Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1354 (2018) (“The
word ‘shall’ generally imposes a nondiscretionary
duty.”); Gilda Indus., Inc. v. United States, 622 F.3d
1358, 1364 (Fed. Cir. 2010) (“When a statute directs
that a certain consequence ‘shall’ follow from specified
12

The judge who decided Montana Health Co-op––the
Honorable Elaine D. Kaplan–– subsequently issued a substantively identical ruling in another case. See Samford Health Plan
v. United States, 139 Fed. Cl. 701 (2018).

22a
contingencies, the provision is mandatory and leaves
no room for discretion.”); cf. Moda Health Plan, Inc. v.
United States, 892 F.3d 1311, 1320 (2018) (concluding
that similar language in section 1342 of the Affordable
Care Act––indicating that the Secretary of HHS
“shall establish” a risk corridors program pursuant to
which the Secretary of HHS “shall pay” risk corridors
payments––is “unambiguously mandatory”). Moreover,
the mandatory payment obligation fits logically within
the statutory scheme established by Congress. The
cost-sharing reduction payments were meant to reimburse insurers for paying an increased share of
their insureds’ cost-sharing obligations, 42 U.S.C.
§ 18071(a)(2), (c)(3)(A), and the reduction of insureds’
cost-sharing obligations was meant to make obtaining
health care more affordable, see, e.g., id. § 18071(c)(1)(A)
(describing how cost-sharing reductions would be
achieved by reducing insureds’ out-of-pocket limits).
In short, the plain language, structure, and purpose of
the Affordable Care Act reflect the intent of Congress
to require the Secretary of HHS to make cost-sharing
reduction payments to insurers.
Defendant does not dispute this conclusion. Rather,
it contends that the cost-sharing reduction payment
obligation is unenforceable because Congress never
specifically appropriated funds––either in the Affordable Care Act or thereafter––to make cost-sharing
reduction payments.
1. The Lack of Specific Appropriating
Language in the Affordable Care Act
As defendant observes, the Affordable Care Act does
not include any language specifically appropriating
funds for cost-sharing reduction payments. Defendant
also correctly observes that the Act’s cost-sharing
reduction provision lacks any appropriating language,

23a
while its companion provision––the premium tax
credit––included an explicit funding mechanism.13
Compare Affordable Care Act § 1401(d) (amending the
permanent appropriation set forth in 31 U.S.C. § 1324
to allow for the payment of the premium tax credit),
with id. § 1402 (containing no appropriating language). According to defendant, the absence of any
funding mechanism for cost-sharing reduction payments, and Congress’s decision to provide a funding
mechanism for premium tax credit payments and not
cost-sharing reduction payments, reflect the intent of
Congress, when enacting the Affordable Care Act, to
preclude liability for cost-sharing reduction payments.
Defendant is mistaken for several reasons.
First, it is well settled that the government can
create a liability without providing for the means to
pay for it. See, e.g., Moda Health Plan, 892 F.3d at
1321 (“[I]t has long been the law that the government
may incur a debt independent of an appropriation
to satisfy that debt, at least in certain circumstances.”); Collins v. United States, 15 Ct. Cl. 22, 35
(1879) (“[T]he legal liabilities incurred by the United
States under . . . the laws of Congress . . . may be
created where there is no appropriation of money to
meet them . . . .”). Thus, the absence of a specific
appropriation for cost-sharing reduction payments
in the Affordable Care Act does not, on its own,
extinguish the government’s obligation to make the
payments.
Second, that Congress provided a funding mechanism for premium tax credit payments and not
13

Both provisions appear in subpart A of part I of subtitle E of
the Affordable Care Act, which is titled “Premium Tax Credits
and Cost-Sharing Reductions.” 124 Stat. at 213-24.

24a
for cost-sharing reduction payments does not reflect
congressional intent to foreclose liability for the latter.
Defendant relies on the proposition that when
“Congress includes particular language in one section
of a statute but omits it in another section of the same
Act, it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion
or exclusion.” Russello v. United States, 464 U.S. 16,
23 (1983) (quoting United States v. Wong Kim Bo, 472
F.2d 720, 722 (5th Cir. 1972)); accord Digital Realty
Trust, Inc. v. Somers, 138 S. Ct. 767, 777 (2018). Here,
although Congress may have acted intentionally by
treating the two related provisions differently,14 it is
difficult to discern what that intent might be. In
addition to the intent inferred by defendant, there are
other reasonable explanations for the disparity. One
possible explanation is that it was a simple matter to
add the premium tax credit to a preexisting permanent appropriation in the Internal Revenue Code for
the payment of tax credits, whereas no such permanent appropriation existed that would apply to costsharing reduction payments. Another possible explanation is that Congress understood that other funds
available to HHS could be used to make the
cost-sharing reduction payments; indeed, the costsharing reduction provision lacks any language, such
as “subject to the availability of appropriations,”
reflecting Congress’s recognition that appropriations
were unavailable, see Greenlee Cty., Ariz. v. United
14

Alternatively, it is possible that the disparate treatment
does not reflect any intent at all. As the United States Supreme
Court (“Supreme Court”) recognized in King, “[t]he Affordable
Care Act contains more than a few examples of inartful drafting.”
135 S. Ct. at 2492. Thus, Congress’s failure to include any
appropriating language in the cost-sharing reduction provision
may simply have been an oversight.

25a
States, 487 F.3d 871, 878 (Fed. Cir. 2007) (observing
that “in some instances the statute creating the right
to compensation . . . may restrict the government’s
liability . . . to the amount appropriated by Congress”
with language such as “subject to the availability of
appropriations”). A third possible explanation is that
Congress intended to defer appropriating funds for
cost-sharing reduction payments until 2014, when
insurers began to offer qualified health plans on the
exchanges and incur cost-sharing reduction liabilities.
Because it is unclear which of these explanations––if
any––is correct, the court declines to ascribe any
particular intent to Congress based on Congress’s
disparate treatment of the two provisions.
Third, the court is unpersuaded by defendant’s
related contention that insurers’ ability to increase
premiums for their silver-level qualified health plans
to obtain greater premium tax credit payments, and
thus offset any losses from the government’s nonpayment of cost-sharing reduction reimbursements, is
evidence that Congress did not intend to provide a
statutory damages remedy for the government’s
failure to make the cost-sharing reduction payments.
Accord Montana Health Co-op, 139 Fed. Cl. at 221.
Defendant does not identify any statutory provision
permitting the government to use premium tax credit
payments to offset its cost-sharing reduction payment
obligation (even if insurers intentionally increased
premiums to obtain larger premium tax credit
payments to make up for lost cost-sharing reduction
payments). Nor does defendant identify any evidence
in the Affordable Care Act’s legislative history suggesting that Congress intended to limit its liability to
make cost-sharing reduction payments by increasing
its premium tax credit payments. That insurers and
states discovered a way to mitigate the insurers’ losses

26a
from the government’s failure to make cost-sharing
reduction payments does not mean that Congress
intended this result. Moreover, defendant’s concern
that Congress could not have intended to allow a
double recovery of cost-sharing reduction payments is
not well taken. The increased amount of premium tax
credit payments that insurers receive from increasing
silver-level plan premiums are still premium tax
credit payments, not cost-sharing reduction payments.
Indeed, under the statutory scheme as it exists, even
if the government were making the required costsharing reduction payments, insurers could (to the
extent permitted by their state insurance regulators)
increase their silver-level plan premiums; in such
circumstances, it could not credibly be argued that the
insurers were obtaining a double recovery of costsharing reduction payments. While the premium tax
credit and cost-sharing reduction provisions were
enacted to reduce an individual’s health-care-related
costs (to obtain insurance and to obtain health care,
respectively), they are not substitutes for each other.15
15

The California district court’s decision in California v.
Trump does not assist defendant. Although the court described
how insurers are coping with the lost cost-sharing reduction
payments by raising silver-level qualified health plan premiums
to obtain larger premium tax credit payments, nowhere in its
decision does the court hold that the government’s liability for
cost-sharing reduction payments is lessened or eliminated by the
government making larger premium tax credit payments to
insurers. Indeed, the court very clearly emphasized that the
premium tax credit program and the cost-sharing reduction
program were separate and distinct. See California, 267 F. Supp.
3d at 1131. Moreover, the court’s discussion of the approach taken
by insurers to obtain increased premium tax credit payments
was included within its analysis of “whether the absence of a
preliminary injunction would harm the public and impede the
objectives of health care reform.” Id. at 1133. In other words, the

27a
Fourth, it would defy common sense to conclude that
Congress obligated the Secretary of HHS to reimburse
insurers for their mandatory cost-sharing reductions
without intending to actually reimburse the insurers.
If Congress did not intend to create such an obligation,
it would not have included any provision for reimbursing cost-sharing reductions in the Act.
In sum, Congress’s failure to include any appropriating language in the Affordable Care Act does
not reflect congressional intent to preclude liability for
cost-sharing reduction payments. This conclusion,
however, does not end the court’s analysis because
defendant also argues that Congress’s subsequent
failure to appropriate funds to make cost-sharing
reduction payments through annual appropriations
acts or otherwise signals congressional intent to
foreclose liability.
2. The Lack of Specific Appropriating Language in Subsequent Appropriations Acts
The Appropriations Clause of the United States
Constitution provides that “[n]o Money shall be drawn
from the Treasury, but in Consequence of Appropriations made by Law[.]” U.S. Const. art. I, § 9, cl. 7. The
statute commonly referred to as the Antideficiency Act
further provides that “[a]n officer or employee of the
United States Government . . . may not . . . make or
authorize an expenditure or obligation exceeding an
amount available in an appropriation or fund for the
expenditure or obligation[.]” 31 U.S.C. § 1341(a)(1)(A).
These directives are unambiguous: disbursements
from the United States Treasury require an appropricourt’s focus was on how the increase in premiums would affect
the public, and not on the government’s obligation to make
payments to insurers.

28a
ation from Congress. However, “the mere failure of
Congress to appropriate funds, without further words
modifying or repealing, expressly or by clear implication, the substantive law, does not in and of itself
defeat a Government obligation created by statute.”
N.Y. Airways, Inc. v. United States, 369 F.2d 743, 748
(Ct. Cl. 1966) (per curiam), cited in Moda Health Plan,
892 F.3d at 1321-22; cf. Moda Health Plan, 892 F.3d
at 1322 (recognizing that the Supreme Court “rejected
the notion that the Anti-Deficiency Act’s requirements
somehow defeat the obligations of the government”).
Defendant does not contend that any appropriations
acts––or, indeed, any statutes at all––enacted after
the Affordable Care Act contain language that
“expressly or by clear implication” modifies or repeals
the Act’s cost-sharing reduction payment obligation.
Rather, it relies on Congress’s complete failure to
appropriate funds for cost-sharing reduction payments as evidence that Congress intended to suspend
the cost-sharing reduction payment obligation. Defendant’s reliance is misplaced. None of the appropriations acts enacted after the Affordable Care
Act expressly or impliedly disavowed the payment
obligation; they were completely silent on the issue.
Thus, this case is distinguishable from those relied
upon by defendant––Mitchell v. United States, 109
U.S. 146 (1883), Dickerson v. United States, 310 U.S.
554 (1940), and United States v. Will, 449 U.S. 200
(1980)––that concerned situations in which Congress
made affirmative statements in appropriations acts
that reflected an intent to suspend the underlying
substantive law.
Here, Congress has had ample opportunity to
modify, suspend, or eliminate the statutory obligation
to make cost-sharing reduction payments but has not

29a
done so. Congress’s inaction stands in stark contrast
to its treatment of the Affordable Care Act’s risk
corridors program. Under that program, which was
established in section 1342 of the Affordable Care Act,
the Secretary of HHS was required to make annual
payments to insurers pursuant to a statutory formula.
42 U.S.C. § 18062; Moda Health Plan, 892 F.3d at
1320. However, Congress included riders in two
appropriations acts enacted after the Affordable Care
Act that prohibited appropriated funds from being
used to make risk corridors payments. See Consolidated Appropriations Act, 2016, Pub. L. No. 114-113,
div. H, tit. II, § 225, 129 Stat. 2242, 2624; Consolidated
and Further Continuing Appropriations Act, 2015,
Pub. L. No. 113-235, div. G, tit. II, § 227, 128 Stat.
2130, 2491. These riders have been interpreted to
suspend the government’s obligation to make risk
corridors payments from appropriated funds. Moda
Health Plan, 892 F.3d at 1322-29. Congress has never
enacted any such appropriations riders with respect to
cost-sharing reductions payments, even when costsharing reduction payments were being made––
during both the Obama and Trump administrations––
from the permanent appropriation for tax credits
described in 31 U.S.C. § 1324. Thus, the congressional
inaction in this case may be interpreted, contrary to
defendant’s contention, as a decision not to suspend
or terminate the government’s cost-sharing reduction
payment obligation.16
16

The court recognizes that drawing inferences from congressional inaction can be highly problematic. See Pension Benefit
Guar. Corp. v. LTV Corp., 496 U.S. 633, 650 (1990) (“Congressional inaction lacks ‘persuasive significance’ because
‘several equally tenable inferences’ may be drawn from such
inaction . . . .” (quoting United States v. Wise, 370 U.S. 405, 411
(1962)); Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 306

30a
In short, Congress’s failure to appropriate funds to
make cost-sharing reduction payments through annual
appropriations acts or otherwise does not reflect a
congressional intent to foreclose, either temporarily or
permanently, the government’s liability to make those
payments.
B. Plaintiff Can Recover Unpaid Cost-Sharing
Reduction Reimbursements in the United
States Court of Federal Claims
Plaintiff asserts that because the government has
breached its statutory obligation to make cost-sharing
reduction payments, recovery is available in the
United States Court of Federal Claims (“Court of
Federal Claims”) under the Tucker Act. The Tucker
Act, the principal statute governing the jurisdiction of
this court, waives sovereign immunity for claims
against the United States, not sounding in tort, that
are founded upon the United States Constitution, a
federal statute or regulation, or an express or implied
contract with the United States. 28 U.S.C. § 1491(a)(1)
(2012). It is merely a jurisdictional statute and “does
not create any substantive right enforceable against
the United States for money damages.” United States
v. Testan, 424 U.S. 392, 398 (1976). Instead, the
substantive right must appear in another source of
law, such as a “money-mandating constitutional provision, statute or regulation that has been violated, or
an express or implied contract with the United
States.” Loveladies Harbor, Inc. v. United States, 27
F.3d 1545, 1554 (Fed. Cir. 1994) (en banc). It is well
accepted that a statute “is money-mandating for
jurisdictional purposes if it ‘can fairly be interpreted
(1988) (“This Court generally is reluctant to draw inferences from
Congress’ failure to act.”).

31a
as mandating compensation for damages sustained as
a result of the breach of the duties [it] impose[s].’”
Fisher v. United States, 402 F.3d 1167, 1173 (Fed. Cir.
2005) (panel portion) (quoting United States v.
Mitchell, 463 U.S. 206, 219 (1983)). Under this rule,
“[i]t is enough . . . that a statute creating a Tucker Act
right be reasonably amenable to the reading that it
mandates a right of recovery in damages. While the
premise to a Tucker Act claim will not be ‘lightly
inferred,’ a fair inference will do.” United States v.
White Mountain Apache Tribe, 537 U.S. 465, 473
(2003) (citation omitted).
The cost-sharing reduction provision of the Affordable Care Act, codified at 42 U.S.C. § 18071, is a
money-mandating statute for Tucker Act purposes:
the Secretary of HHS is required to reimburse
insurers for their mandatory cost-sharing reductions,
42 U.S.C. § 18071(c)(3)(A), and his failure to make
such payments is a violation of that duty that deprives
the insurers of money to which they are statutorily
entitled. Accord Montana Health Co-op, 139 Fed. Cl.
at 217; see also Moda Health Plan, 892 F.3d at 1320
n.2 (holding that the statute providing for risk corridors payments “is money-mandating for jurisdictional
purposes”). Consequently, an insurer that establishes
that the government failed to make the cost-sharing
reduction payments to which the insurer was entitled
can recover the amount due in this court.17

17

Defendant appears to contend that for plaintiffs to recover
under a money-mandating statute, they must separately establish that the statute authorizes a damages remedy for its
violation. Defendant is incorrect. Although some money-mandating
statutes include a separate provision authorizing a damages
remedy, see, e.g., 41 U.S.C. § 7104(b) (2012) (allowing contractors
to bring claims arising under the Contract Disputes Act of 1978

32a
Moreover, the lack of a specific appropriation for
cost-sharing reduction payments does not preclude
such a recovery. Appropriations merely constrain
government officials’ ability to obligate or disburse
funds. See Moda Health Plan, 892 F.3d at 1322 (“The
Anti-Deficiency Act simply constrains government
officials. . . . Budget authority is not necessary to create
an obligation of the government; it is a means by which
an officer is afforded that authority.”); Ferris v. United
States, 27 Ct. Cl. 542, 546 (1892) (“An appropriation
per se merely imposes limitations upon the Government’s own agents; it is a definite amount of money
intrusted to them for distribution; but its insufficiency
does not pay the Government’s debts, nor cancel its
obligations, nor defeat the rights of other parties.”).
Thus, the lack of an appropriation, standing alone,
in the Court of Federal Claims), other money-mandating statutes
pursuant to which the Court of Federal Claims can enter
judgment do not, see, e.g., 5 U.S.C. § 5942 (2012) (governing
federal employees’ entitlement to a remote duty allowance); 37
U.S.C. § 204 (2012) (governing military service members’ entitlement to basic pay). Indeed, “[t]o the extent that the Government
would demand an explicit provision for money damages to
support every claim that might be brought under the Tucker Act,
it would substitute a plain and explicit statement standard for
the less demanding requirement of fair inference that the law
was meant to provide a damages remedy for breach of a duty.”
White Mountain Apache Tribe, 537 U.S. at 477; accord Fisher, 402
F.3d at 1173 (en banc portion) (“[T]he determination that the
source is money-mandating shall be determinative both as to the
question of the court’s jurisdiction and thereafter as to the question of whether, on the merits, plaintiff has a money-mandating
source on which to base his cause of action.”); Montana Health
Co-op, 139 Fed. Cl. at 217 n.5 (“Plaintiffs have never been
required to make some separate showing that the moneymandating statute that establishes this court’s jurisdiction over
their monetary claims also grants them an express (or implied)
cause of action for damages.”).

33a
does not constrain the court’s ability to entertain a
claim that the government has not discharged the
underlying statutory obligation or to enter judgment
for the plaintiff on that claim. See Slattery v. United
States, 635 F.3d 1298, 1321 (Fed. Cir. 2011) (en banc)
(“[T]he jurisdictional foundation of the Tucker Act is
not limited by the appropriation status of the agency’s
funds or the source of funds by which any judgment
may be paid.”); N.Y. Airways, 369 F.2d at 752 (“[T]he
failure of Congress or an agency to appropriate or
make available sufficient funds does not repudiate the
obligation; it merely bars the accounting agents of the
Government from disbursing funds and forces the
carrier to a recovery in the Court of Claims.”); Collins,
15 Ct. Cl. at 35 (remarking that a legal liability
“incurred by the United States under . . . the laws of
Congress,” such as “[t]he compensation to which public
officers are legally entitled . . . , exists independently
of the appropriation, and may be enforced by proceedings in this court”).
In fact, judgments of this court are payable from the
Judgment Fund, see 31 U.S.C. § 1304(a)(3)(A), which
“is a permanent, indefinite appropriation . . . available
to pay many judicially and administratively ordered
monetary awards against the United States,” 31
C.F.R. § 256.1 (2016); accord Bath Iron Works Corp. v.
United States, 20 F.3d 1567, 1583 (Fed. Cir. 1994)
(stating that 31 U.S.C. § 1304 “was intended to
establish a central, government-wide judgment fund
from which judicial tribunals administering or ordering judgments, awards, or settlements may order
payments without being constrained by concerns of
whether adequate funds existed at the agency level to
satisfy the judgment”). Indeed, as applicable here,
“funds may be paid out [of the Judgment Fund]
only on the basis of a judgment based on a substantive

34a
right to compensation based on the express terms of a
specific statute.” Office of Pers. Mgmt. v. Richmond,
496 U.S. 414, 432 (1990); accord Moda Health Plan,
892 F.3d at 1326 (“[A]ccess to the Judgment Fund
presupposes liability.”); cf. 31 U.S.C. § 1304(a)(1)
(indicating that the Judgment Fund is available when
“payment is not otherwise provided for”). Because
plaintiff’s claim arises from a statute mandating the
payment of money damages in the event of its
violation, the Judgment Fund is available to pay a
judgment entered by the court on that claim.18
18

Defendant acknowledged this possibility in other litigation.
See Defs.’ Mem. Supp. Mot. Summ. J. 20, Burwell, 185 F. Supp.
3d at 165 (No. 1:14-cv-01967-RMC) (“The [Affordable Care] Act
requires the government to pay cost-sharing reductions to
issuers. The absence of an appropriation would not prevent the
insurers from seeking to enforce that statutory right through
litigation. Under the Tucker Act, a plaintiff may bring suit
against the United States in the Court of Federal Claims to
obtain monetary payments based on statutes that impose certain
types of payment obligations on the government. If the plaintiff
is successful, it can receive the amount to which it is entitled from
the permanent appropriation Congress has made in the Judgment Fund. The mere absence of a more specific appropriation is
not necessarily a defense to recovery from that Fund.” (citations
omitted)); Defs.’ Mem. Opp’n Pl.’s Mot. Summ. J. 12-13, Burwell,
185 F. Supp. 3d at 165 (No. 1:14-cv-01967-RMC) (“Indeed, had
Congress not permanently funded the cost-sharing reductions, it
would have exposed the government to litigation by insurers, who
could bring damages actions under the Tucker Act premised on
the government’s failure to make the mandatory cost-sharing
reduction payments that the Act requires.”); Defs.’ Reply Mem.
Supp. Mot. Summ. J. 9, Burwell, 185 F. Supp. 3d at 165 (No. 1:14cv-01967-RMC) (“[T]he House’s interpretation of the [Affordable
Care Act]—under which the Act would require the government to
make the cost-sharing payments but provide no appropriation for
doing so directly—would invite potentially costly lawsuits under
the Tucker Act. The House asserts that insurers could not prevail
in such suits ‘[a]bsent a valid appropriation.’ But courts have held

35a
C. Plaintiff Is Entitled to Recover Unpaid CostSharing Reduction Reimbursements
Plaintiff seeks to recover the cost-sharing reduction
payments that it has not received for 2017 and
2018. As noted above, plaintiff has established
that the government is obligated to reimburse it for
its cost-sharing reductions pursuant to 42 U.S.C.
§ 18071(c)(3)(A) and that the government stopped
making such reimbursements in October 2017. Accordingly, at a minimum, it is entitled to recover the costsharing reduction payments that the government did
not make for 2017.
With respect to 2018, defendant contends––as
discussed above, albeit in the course of arguing that
the structure of the Affordable Care Act reflects a
congressional intent to preclude cost-sharing reduction
payments absent an appropriation for that purpose––
that plaintiff’s ability to increase the premiums for its
silver-level qualified health plans to obtain greater
premium tax credit payments precludes recovery
under the Act’s cost-sharing reduction provision. Specifically, defendant asserts that the statutory scheme
enacted by Congress permits insurers to make up any
lost cost-sharing reduction payments by increasing
silver-level plan premiums, which would prevent
monetary injury to insurers. Defendant also expresses
concern that allowing insurers to both obtain greater
premium tax credits and obtain a judgment for their
that the absence of an appropriation does not necessarily
preclude recovery from the Judgment Fund in a Tucker Act suit.
The House does not explain how, given this precedent, the government could avoid Tucker Act litigation by insurers in the wake
of a ruling that the ACA did not permanently fund the costsharing reduction payments that the Act directs the government
to make.” (citations omitted)).

36a
lost cost-sharing reduction payments would provide an
unwarranted windfall for insurers. As noted above,
the court is not convinced by defendant’s arguments.
Accordingly, it finds that plaintiff may recover the
cost-sharing reduction payments that the government
did not make for 2018.
IV. CONCLUSION
For the reasons set forth above, the court concludes
that the government’s failure to make cost-sharing
reduction payments to plaintiff violates 42 U.S.C.
§ 18071. Therefore, it GRANTS plaintiff’s motion for
summary judgment and DENIES defendant’s motion
to dismiss. By no later than Thursday, February 28,
2019, the parties shall file a joint status report
indicating the amount due to plaintiff and the other
class members for the cost-sharing payments they did
not receive for 2017 and 2018. For each class member,
the parties shall indicate (1) the amount due for 2017,
(2) the amount due for 2018, and (3) the sum of the
amounts due for 2017 and 2018. If the parties are
unable to provide the amounts due for 2018, they shall
(1) suggest a deadline for providing the court with that
information and (2) indicate whether an RCFC 54(b)
judgment limited to the cost-sharing reduction claims
for 2017 would be appropriate. If the parties are able
to provide the amounts due for 2018, the court will
direct the entry of judgment on the class’s cost-sharing
reduction claims for 2017 and 2018 pursuant to RCFC
54(b).
IT IS SO ORDERED.
s/ Margaret M. Sweeney
MARGARET M. SWEENEY
Chief Judge

37a
APPENDIX C
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2020-1286
————
COMMON GROUND HEALTHCARE COOPERATIVE, on
behalf of itself and all others similarly situated,
v.

Plaintiff-Appellee

UNITED STATES,
Defendant-Appellant
————
Appeal from the United States Court of
Federal Claims in No. 1:17-cv-00877-MMS,
Chief Judge Margaret M. Sweeney.
————
ON PETITION FOR REHEARING EN BANC
————
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellee Common Ground Healthcare Cooperative
filed a petition for rehearing en banc. At the court’s
invitation and with leave of the court, the United
States filed a response to the petition and incorporated

38a
a conditional cross-petition for rehearing en banc. The
petitions were first referred as petitions for rehearing
to the panel that heard the appeal, and thereafter the
petitions for rehearing en banc were referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied. The
petitions for rehearing en banc are denied.
The mandate of the court will issue on December 23,
2020.
FOR THE COURT
December 16, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

39a
APPENDIX D
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
————
No. 17-877 C
————
COMMON GROUND HEALTHCARE COOPERATIVE, on
behalf of itself and all others similarly situated
v.
THE UNITED STATES
————
Filed October 22, 2019
————
RULE 54(b)
JUDGMENT
Pursuant to the court’s Opinion and Order, filed
February 15, 2019, granting plaintiff’s motion for
summary judgment and denying defendant’s motion to
dismiss; and Order, filed October 22, 2019, directing
the entry of judgment under Rule 54(b), there being no
just reason for delay,
IT IS ORDERED AND ADJUDGED this date,
pursuant to Rule 58, that judgment is entered for
the cost-sharing reduction (CSR) class in the amount
of $1,587,108,397.81, with the CSR class members
entitled to the amounts set forth in the attached table.
Plaintiff is entitled to costs.

40a
Lisa L. Reyes,
Clerk of Court
By: s/ Debra L. Samler,
Deputy Clerk
NOTE: As to appeal to the United States Court of
Appeals for the Federal Circuit, 60 days from this
date, see RCFC 58.1, re number of copies and listing
of all plaintiffs. Filing fee is $505.00.

47a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2019-1633
————
COMMUNITY HEALTH CHOICE, INC.,
v.

Plaintiff-Appellee

UNITED STATES,
Defendant-Appellant
————
Appeal from the United States Court of
Federal Claims in No. 1:18-cv-00005-MMS,
Chief Judge Margaret M. Sweeney.
————
2019-2102
————
MAINE COMMUNITY HEALTH OPTIONS,
v.

Plaintiff-Appellee

UNITED STATES,
Defendant-Appellant
————
Appeal from the United States Court of
Federal Claims in No. 1:17-cv-02057-MMS,
Chief Judge Margaret M. Sweeney.
————
Decided: August 14, 2020
————

48a
WILLIAM LEWIS ROBERTS, Faegre Drinker Biddle &
Reath LLP, Minneapolis, MN, argued for plaintiffappellee in 19-1633. Also represented by JONATHAN
WILLIAM DETTMANN, NICHOLAS JAMES NELSON.
DANIEL WILLIAM WOLFF, Crowell & Moring, LLP,
Washington, DC, argued for plaintiff-appellee in 192102. Also represented by STEPHEN JOHN MCBRADY,
SKYE MATHIESON, CHARLES BAEK, CLIFTON S.
ELGARTEN.
ALISA BETH KLEIN, Appellate Staff, Civil Division,
United States Department of Justice, Washington,
DC, argued for defendant-appellant. Also represented
by MARK B. STERN, ETHAN P. DAVIS.
STEPHEN A. SWEDLOW, Quinn Emanuel Urquhart &
Sullivan, LLP, Chicago, IL, for amicus curiae Common
Ground Healthcare Cooperative. Also represented by
DAVID COOPER, New York, NY; J. D. HORTON, ADAM
WOLFSON, Los Angeles, CA.
————
Before DYK, BRYSON, and TARANTO, Circuit Judges.
DYK, Circuit Judge.
Today in Sanford Health Plan v. United States
(“Sanford”), No. 19-1290, we hold that the United
States failed to comply with section 1402 of the Patient
Protection and Affordable Care Act (“ACA”), Pub. L.
No. 111-148, 124 Stat. 119, 220–24 (2010) (codified at
42 U.S.C. § 18071)—which requires the government
to reimburse insurers for “cost-sharing reductions.”
We hold that section 1402 “imposes an unambiguous
obligation on the government to pay money and that
the obligation is enforceable through a damages action
in the Court of Federal Claims [(‘Claims Court’)] under
the Tucker Act.” Sanford, No. 19-1290, slip op. at 3.

49a
In these cases, following our decision in Sanford, we
affirm the Claims Court’s decisions as to liability. As
in Sanford, we conclude that the government is not
entitled to a reduction in damages with respect to costsharing reductions not paid in 2017. As to 2018, we
address an issue not presented in Sanford: the
appropriate measure of damages. We hold that the
Claims Court must reduce the insurers’ damages by
the amount of additional premium tax credit payments that each insurer received as a result of the
government’s termination of cost-sharing reduction
payments. We reverse and remand for further proceedings with respect to damages.
BACKGROUND
I
In 2010, Congress enacted the ACA, which includes
“a series of interlocking reforms designed to expand
coverage in the individual health insurance market.”
King v. Burwell, 135 S. Ct. 2480, 2485 (2015). “[T]he
Act requires the creation of an ‘[e]xchange’ in each
State—basically, a marketplace that allows people to
compare and purchase insurance plans.” Id. Insurance
plans sold on the ACA exchanges must provide a
minimum level of “essential health benefits” and are
referred to as “qualified health plans.” See 42 U.S.C.
§ 18031. The ACA defines four levels of coverage:
bronze, silver, gold, and platinum, which are based on
the percentage of essential health benefits that the
insurer pays for under each type of plan. Sanford, No.
19-1290, slip op. at 4. For example, under a silver-level
plan, the health insurance provider pays for 70 percent of the actuarial value of the benefits, and either
the insured or the government pays the remaining 30
percent. Id.

50a
Under most health insurance plans, the insured
individual must bear two types of costs. First, the
insured must pay a monthly premium to maintain
coverage. Second, the insured must pay an additional
fee—called “cost-sharing”—when medical expenses
are incurred. Deductibles, coinsurance, and copayments are examples of such fees. See 42 U.S.C.
§ 18022(c)(3)(A)(i). The ACA includes two sections,
1401 and 1402, that reduce the premiums and costsharing for low-income insureds by government payments to the insurers. These sections “work together:
the [premium reductions] help people obtain insurance, and the cost-sharing reductions help people
get treatment once they have insurance.” See Cmty.
Health Choice, Inc. v. United States, 141 Fed. Cl. 744,
750 (2019) (quoting California v. Trump, 267 F. Supp.
3d 1119, 1123 (N.D. Cal. 2017)). These sections apply
to taxpayers with a household income of between 100
percent and 400 percent of the federal poverty line.
See 42 U.S.C. § 18071(b)(2); 26 U.S.C. § 36B(c)(1)(A);
Sanford, No. 19-1290, slip op. at 5, 7. The statute
refers to them as “applicable taxpayer[s]” in the case
of section 1401, 26 U.S.C. § 36B(c)(1)(A), and “eligible
insured[s]” in the case of section 1402, 42 U.S.C.
§ 18071(b).
Premium reductions. Under section 1401, each
“applicable taxpayer” enrolled in an ACA exchange
plan at any level of coverage is entitled to a “premium
assistance credit amount” (“premium tax credit”) to
offset part of the monthly premiums of the enrollee
entitled to the premium tax credit. 26 U.S.C. § 36B.
The ACA specifies a formula for determining the
amount of premium tax credits, which depends on
the applicable taxpayer’s household income, but not on
the monthly premium or the coverage level for the
applicable taxpayer’s plan. The premium tax credit

51a
cannot exceed the actual monthly premium for the
individual’s plan. See id. § 36B(b)(2). The government
pays these premium tax credit amounts directly to
insurers. See Sanford, No. 19-1290, slip op. at 8; 31
U.S.C. § 1324. Thus, the amount of the premiums
charged by the insurers to the insured is effectively
reduced.
Premium review. The ACA includes various
measures for regulating insurance premiums. Section
1003 of the ACA establishes a “premium review
process” that requires insurers to report their premium rate increases to the Secretary of Health and
Human Services (“the Secretary”) and state regulators. See 42 U.S.C. § 300gg-94 (codifying ACA section
1003). State authorities can review the proposed rates.
However, “[t]he rate review process does not establish
federal authority to deny implementation of a proposed rate increase; it is a sunshine provision designed
to publicly expose rate increases determined to be
unreasonable.” See Bernadette Fernandez, Vanessa C.
Forsberg & Ryan J. Rosso, Cong. Rsch. Serv., R45146,
Federal Requirements on Private Health Insurance
Plans 9 (2018). If a state regulator finds that an
insurer’s premium rate increases are “excessive or
unjustified,” it is required to recommend that the
Secretary “exclude[] [the insurer] from participation in
the [state] [e]xchange.” 42 U.S.C. § 300gg-94(b)(1)(B).
Following the enactment of the ACA, states have
taken a varied approach to premium rate review
programs. Some, but not all, states have reserved
the express authority to approve or deny premium
rate increases. See Mark Newsom & Bernadette
Fernandez, Cong. Rsch. Serv., R41588, Private Health
Insurance Premiums and Rate Reviews 15 (2011)
(“There is substantive variation in state regulation of

52a
health insurance rates.”). In states where there is
no express approval requirement, insurers are still
required to notify state regulators of premium
increases above a certain threshold. See 42 U.S.C.
§ 300gg-94(a)(2); Fernandez et al., Federal Requirements on Private Health Insurance Plans at 9. The
damages issue here does not turn on whether the
states have required express approval of premium
increases.
Cost-sharing reductions. Section 1402 of the ACA
requires insurers to reduce the insured’s “costsharing” payments and requires the Secretary to
“make periodic and timely payments to the [insurer]
equal to the value of the [cost-sharing] reductions.” 42
U.S.C. § 18071(c)(3)(A). The section applies to “eligible
insured[s]” enrolled in silver-level plans offered on the
exchanges. Id. § 18071(a), (b). Eligibility under section
1402 is tied to eligibility under section 1401, and the
amount of cost-sharing reductions is directly tied to
the household income of the eligible insured. See Id.
§ 18071(c), (f)(2); Sanford, No. 19-1290, slip op. at 7 n.2.
II
On October 12, 2017, the Secretary announced that
the government would cease payment of cost-sharing
reduction reimbursements. Sanford, No. 19-1290, slip
op. at 11–12. The suspension of cost-sharing reduction
reimbursements did not relieve the insurers of their
statutory obligation to “offer plans with cost-sharing
reductions to customers,” meaning that “the federal
government’s failure to meet its [cost-sharing reduction] payment obligations meant the insurance companies would be losing that money.” California, 267 F.
Supp. 3d at 1134. The solution for the insurers was to
increase premiums. These states “began working with
the insurance companies to develop a plan for how to

53a
respond” “in a fashion that would avoid harm to consumers.” See id. The resulting plan involved the tax
credit provision of section 1401 of the ACA.
Under section 1401, the government is required to
subsidize an amount equal to the lesser of (1) the
monthly premium for the applicable taxpayer’s plan
and (2) the difference between the monthly premium
for the “applicable second lowest cost silver plan [(the
‘benchmark plan’)] with respect to the taxpayer” and
a statutorily-defined percentage of the eligible taxpayer’s monthly household income. 26 U.S.C. § 36B(b)(2)
(codifying ACA section 1401(b)(2)). This percentage
generally varies from 2% to 9.5% based on the eligible
taxpayer’s income relative to the federal poverty line.
Id. § 36B(b)(3)(A). These payments are guaranteed
since, unlike the cost-sharing reduction payments
situation, there is a permanent appropriation for
premium tax credits. See Sanford, No. 19-1290, slip
op. at 8.
In effect, if the insurers increased the monthly
premium for their benchmark silver plans, each
insurer would receive an additional dollar-for-dollar
increase in the amount of the premium tax credit for
each applicable taxpayer under its silver plans, all
while keeping the out-of-pocket premiums paid by
each applicable taxpayer the same. See California, 267
F. Supp. 3d at 1134. But premium increases for silverlevel plans would have an effect on other plans as well:
the insurers would also receive additional tax credits
for applicable taxpayers that were enrolled in bronze,
gold, and platinum plans, whether or not the premiums for those plans were increased. Id. at 1135. Even
if the insurers kept premiums the same for those other
plans, they would receive additional tax credits. See
id.

54a
Because of the government’s refusal to make costsharing reduction payments, most states agreed to
allow insurers to raise premiums for silver-level
health plans, but not for other plans. Cmty., 141 Fed.
Cl. at 755; Me. Cmty. Health Options v. United States,
143 Fed. Cl. 381, 390 (2019). “As a result, in these
states, for everyone between 100% and 400% of the
federal poverty level who wishe[d] to purchase insurance on the exchanges, the available tax credits r[o]se
substantially. Not just for people who purchase[d]
the silver plans, but for people who purchase[d] other
plans too.” Cmty., 141 Fed Cl. at 755 (quoting
California, 267 F. Supp. 3d at 1135). And the insurers
received “more money from the premium tax credit
program, . . . mitigat[ing] the loss of the cost-sharing
reduction payments.” Id. This practice was referred to
as “silver loading.” Id.
This was, however, not a perfect solution. The
premium tax credits could only offset premium
increases for applicable taxpayers, i.e., insureds with
a household income of between 100 percent and 400
percent of the federal poverty line. Thus, people
having a higher household income would be paying
significantly more in premiums for their silver-level
plans since they did not receive premium tax credits.
See California, 267 F. Supp. 3d at 1137. States took a
varied approach to this issue. Although this does not
appear to be the case in Texas or Maine, some states
negotiated with insurers to offer off-exchange, silverequivalent plans at the pre-silver-load premium rates.
Id. Such off-exchange policies were not subject to the
ACA’s premium tax credits or cost-sharing reduction
requirements. In other states, non-eligible individuals
could still switch to bronze, gold, or platinum plans
(which did not have premium rate increases). Id.

55a
III
Community Health Choice, Inc. (“Community”) and
Maine Community Health Options (“Maine Community”) are health insurance providers that sell qualified health plans in Texas and Maine, respectively. See
Cmty., 141 Fed. Cl. at 756; Me. Cmty., 143 Fed. Cl. at
391.1 Both insurers offered cost-sharing reductions, as
required under section 1402, to insured individuals,2
and “as with every other insurer offering qualified
health plans on the exchanges, stopped receiving these
payments effective October 12, 2017.” Cmty., 141 Fed.
Cl. at 756.
The two insurers involved here filed separate
actions in the Claims Court, asserting that they were
entitled to recover the unpaid cost-sharing reduction
reimbursements for 2017 and 2018.3 The insurers
asserted two theories of liability.4 First, the insurers
1

Unless otherwise noted, the Claims Court’s decisions in
Community and Maine Community contain identical language.
For convenience, we limit our citations to Community.
2

For example, the record shows that “approximately 58% of
[Community]’s insured population—over 80,000 individuals—
received cost-sharing reductions.” Cmty., 141 Fed. Cl. at 756.
3

Community’s complaint also claimed damages related to
unpaid payments under the ACA’s risk corridors program for
2014, 2015, and 2016. Cmty., 141 Fed. Cl. at 756. Those claims
were addressed by the Supreme Court’s decision in Maine
Community Health Options v. United States, 140 S. Ct. 1308
(2020). Maine Community’s complaint in this case did not assert
a claim under the risk corridors program.
4

Community asserted a third theory of liability: that the
government’s failure to pay cost-sharing reduction reimbursements constituted a breach of so-called “Qualified Health Plan
Issuer” agreements between Community and the government,
which “require[d] [the government], as part of a monthly reconciliation process, to make payments to insurers that underesti-

56a
alleged that “in failing to make the cost-sharing
reduction payments . . . , the government violated the
statutory and regulatory mandate” of the ACA. Id.
Second, the insurers alleged that the government’s
nonpayment constituted a “breach[] [of] an implied-infact contract.” Id.
On the insurers’ motions for summary judgment,
the Claims Court “conclude[d] that the government’s
failure to make cost-sharing reduction payments to
[the insurers] violate[d] 42 U.S.C. § 18071 [(codifying
ACA section 1402)] and constitute[d] a breach of an
implied-in fact contract.” Id. at 770. The Claims Court
concluded that each insurer was entitled to recover
as damages the full amount of unpaid cost-sharing
reduction reimbursements for both 2017 and 2018.
The Claims Court was “unpersuaded by the [government]’s . . . contention that [the] insurers’ ability to
increase premiums for their silver-level qualified
health plans to obtain greater premium tax credit
payments, and thus offset any losses from the government’s nonpayment of cost-sharing reduction reimbursements,” precluded or reduced the insurers’
damages. Id. at 760.
The government appealed the Claims Court’s decisions to this court, challenging the decisions as to both
mated their cost-sharing obligations and collect payments from
insurers who overestimated their cost-sharing obligations.”
Cmty., 141 Fed. Cl. at 764–65. The Claims Court held that the
obligation to reconcile payments was different from the obligation
to make cost-sharing reduction payments and that the insurers
“ha[d] not established that the . . . [a]greements obligated the
government to make cost-sharing reduction payments,” and
dismissed Community’s claim for breach of an express contract.
Id. at 765–66. Community does not cross-appeal the Claims
Court’s dismissal, and we need not address it.

57a
liability and damages. We have jurisdiction under 28
U.S.C. § 1295(a)(3).
On April 27, 2020, the Supreme Court issued its
decision in Maine Community Health Options v.
United States, 140 S. Ct. 1308 (2020), holding that
section 1342 of the ACA (“[t]he Risk Corridors
statute,” id. at 1329), which states that the government “shall pay” money to insurers offering “unprofitable plans” on the ACA exchanges, id. at 1316,
created a “money-mandating obligation requiring the
Federal Government to make payments under
[section] 1342’s formula,” id., at 1331, and that health
insurance providers were entitled to “seek to collect
[such] payment through a damages action in the
[Claims Court],” id.
Today in Sanford, following the Supreme Court’s
decision in Maine Community, we hold that the
government violated its obligation to make costsharing reduction payments under section 1402; “that
the cost-sharing-reduction reimbursement provision
imposes an unambiguous obligation on the government to pay money[;] and that the obligation is
enforceable through a damages action in the [Claims
Court] under the Tucker Act.” Sanford, No. 19-1290,
slip op. at 3.
DISCUSSION
I
As noted, the government argues that section 1402
did not create a statutory obligation on the part of the
government to pay cost-sharing reduction reimbursements and that its failure to make payments did not
violate the statute. Our decision in Sanford resolves
these issues in favor of the insurers here. Sanford, No.
19-1290, slip op. at 18. Because we affirm the Claims

58a
Court’s decisions as to statutory liability, and the
damages are the same under either theory of liability
(as discussed below), we need not address the insurers’
implied-in-fact contract theory.
II
The government nonetheless argues that, even if
section 1402 created a statutory obligation, the
insurers are not entitled to recover the full amount of
the unpaid 2017 and 2018 cost-sharing reduction
payments as damages. We find no merit to the
government’s argument that the insurers’ 2017 damages should be reduced. Like the insurers in Sanford,
Community and Maine Community did not raise
their silver-level plan premiums in 2017 or receive
increased tax credits for that year from the elimination of the cost-sharing reduction payments. Here, as
in Sanford, we see no basis for a 2017 damages offset
and affirm the Claims Court’s award of 2017 damages.
See Sanford, No. 19-1290, slip op. at 9, 12.
III
We turn to the 2018 cost-sharing payments. Neither
the Supreme Court in Maine Community nor our
decision in Sanford resolves this question. The government asserts that, beginning in 2018, both insurers
raised the premiums for their silver-level plans “to
account for the absence of direct reimbursement for
cost-sharing reductions,” resulting in the receipt of
increased premium tax credits. See Gov’t Suppl.
Damages Br. 12–14. It argues that the Claims Court
erred when it failed to credit the government with
“economic benefits” flowing from the increased tax
credits when awarding damages. Id. at 15.

59a
The government’s theory is based on an analogy to
contract law—specifically, the rule that “a nonbreaching party is not entitled, through the award of
damages, to achieve a position superior to the one it
would reasonably have occupied had the breach not
occurred.” LaSalle Talman Bank, F.S.B. v. United
States, 317 F.3d 1363, 1371 (Fed. Cir. 2003). The
government argues that silver loading was a direct
result of the insurers’ mitigation efforts, i.e., increasing premiums for silver-level plans, and that the
insurers’ recovery must be reduced by the additional
payments the insurers received in the form of tax
credits.
The Claims Court rejected these arguments in both
cases on the same ground, holding that there was no
“statutory provision permitting the government to
use premium tax credit payments to offset its costsharing reduction payment obligation,” and that “[t]he
increased amount of premium tax credit payments
that insurers receive[d]” was not a “substitute[]” for its
“cost-sharing reduction payments.” Cmty., 141 Fed.
Cl. at 760. At oral argument, the parties agreed that
the Claims Court’s decisions rejected the government’s
mitigation theory on the merits. On appeal, the insurers similarly argue that the “[g]overment cannot
invoke deductions not set forth in the statute itself.”
Appellees’ Suppl. Damages Br. 4–5.
A
In addressing the mitigation issue, it is important to
distinguish between two different types of statutes
providing for the grant of federal funds: those that
impose an “affirmative obligation[]” or “condition[]” in
exchange for federal funding, and those that do not.
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S.
1, 17, 24 (1981). The Supreme Court has previously

60a
“characterized . . . [the former category of] Spending
Clause legislation as ‘much in the nature of a contract:
in return for federal funds, the [recipients] agree to
comply with federally imposed conditions.” Barnes v.
Gorman, 536 U.S. 181, 186 (2002) (third alteration in
original) (quoting Pennhurst, 451 U.S. at 17). On the
other hand, the latter category of statutes does not
involve contract-like obligations. See id. at 186;
Pennhurst, 451 U.S. at 17; Sossamon v. Texas, 563
U.S. 277, 290 (2011).
Section 1402 belongs in the first category of Spending Clause legislation because it imposes contract-like
obligations: in exchange for federal funds, the insurers
must “‘participat[e] in the healthcare exchanges’
under the statutorily specified conditions.” Sanford,
No. 19-1290, slip op. at 18 (quoting Me. Cmty., 140 S.
Ct. at 1320); see also Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 576 (2012) (analyzing
the Medicaid provisions of the ACA as Spending
Clause legislation). Specifically, in exchange for “the
[insurer] . . . reduc[ing] the cost-sharing under [silver
plans] in the manner specified in [section 1402(c)]” and
“notify[ing] the Secretary of such reductions,” “the
Secretary shall make periodic and timely payments to
the issuer equal to the value of the reductions.” 42
U.S.C. §§ 18071(a)(2), (c)(3)(A); see also Cmty., 141
Fed. Cl. at 768 (“[T]he cost-sharing reduction program
is less of an incentive program and more of a quid pro
quo.”).
Under these contract-like Spending Clause statutes—
where the statute itself does not provide a remedial
framework—a contract-law “analogy applies . . . in
determining the scope of damages remedies” in a suit
by the government against the recipient of federal
funds or by a third-party beneficiary standing in the

61a
government’s shoes. Barnes, 536 U.S. at 186–87; see
also Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S.
274, 287 (1998) (“Title IX’s contractual nature has
implications for our construction of the scope of
available remedies.”). In Barnes, the Court considered
the government’s damages remedies available under
Title VI in a suit charging the federal funds recipient
with failure to comply with its obligations. The Court
explained that, when the statute “contains no express
remedies, a recipient of federal funds is nevertheless
subject to suit for compensatory damages . . . and
injunction . . . forms of relief traditionally available in
suits for breach of contract.” Barnes, 536 U.S. at 187
(citations omitted). Thus, “[w]hen a federal-funds
recipient violates conditions of Spending Clause legislation, the wrong done is the failure to provide what
the contractual obligation requires; and that wrong is
‘made good’ when the recipient compensates the
Federal Government or a third-party beneficiary (as in
this case) for the loss caused by that failure.” Id. at
189. On the other hand, forms of relief that are
“generally not available for breach of contract,” such
as punitive damages, are not available in suits under
such Spending Clause legislation. Id. at 187–89.5

5

This contract-law analogy does not apply where the statute
does not impose contract-like obligations. See, e.g., Heinzelman v.
Sec’y of HHS, 681 F.3d 1374, 1379–80 (Fed. Cir. 2012) (holding
that, with respect to a damages award under the National
Childhood Vaccine Injury Act, 42 U.S.C. §§ 300aa-1–300aa-34,
the government was not entitled to an offset due to Social
Security Disability Insurance (“SSDI”) benefits because the
Vaccine Act “provides for offsets where compensation is made via
one of the enumerated programs,” and SSDI was not identified in
the statute); Modoc Lassen Indian Hous. Auth. v. United
States HUD, 881 F.3d 1181, 1194 (10th Cir. 2017) (noting that
“rules that traditionally govern contractual relationships don’t

62a
The same, we think, is true when an action for
damages is brought against the government, under
this type of Spending Clause legislation. The available
remedy is defined by analogy to contract law where
the statute does not provide its own remedies for
government breach.6 We have indeed previously
applied the contract-law analogy to limit damages in
suits against the government under the Back Pay Act,
5 U.S.C. § 5596, another money-mandating statute.7
necessarily apply in the context of federal grant programs” that
do not impose contract-like obligations such as the Native
American Housing Assistance and Self-Determination Act, 25
U.S.C. § 4101 et seq.); Md. Dep’t of Human Res. v. Dep’t of Health
& Human Servs., 762 F.2d 406, 408–09 (4th Cir. 1985) (declining
to infer a “contractual” relationship in the Aid to Families with
Dependent Children program, 42 U.S.C. § 601 et seq., a “grant in
aid” program); Mem’l Hosp. v. Heckler, 706 F.2d 1130, 1136 (11th
Cir. 1983) (noting that hospitals participating in the Medicare
program did not receive a “contractual right” because the statute
did not “obligate the [government] to provide reimbursement for
any particular expenses”); PAMC, Ltd. v. Sebelius, 747 F.3d 1214,
1221 (9th Cir. 2014) (citing Mem’l Hospital).
6

The amicus argues that the insurers are not seeking
“compensation for the failure to pay,” but are instead seeking
“specific relief” under section 1402. Common Ground Healthcare
Cooperative Suppl. Damages Amicus Br. 5. As the Supreme
Court held in Bowen v. Massachusetts, 487 U.S. 879 (1988), “the
Court of Claims has no [general] power to grant equitable relief.”
Id. at 905 (quoting Richardson v. Morris, 409 U.S. 464, 465 (1973)
(per curiam)). Furthermore, the Supreme Court made clear that
the type of relief that the insurers are seeking is best characterized as “specific sums, already calculated, past due, and designed
to compensate for completed labors.” Me. Cmty., 140 S. Ct. at
1330–31.
7

See Bowen, 487 U.S. at 905 n.42 (“To construe statutes such
as the Back Pay Act . . . as ‘mandating compensation by the
Federal Government for the damage sustained,’ . . . one must
imply from the language of such statutes a cause of action.”
(quoting Eastport S.S. Corp. v. United States, 372 F.2d 1002, 1009

63a
Our predecessor court held that in suits brought for
improper discharge for federal employment, damages
had to be reduced by the amount earned by the federal
employee in the private sector under a mitigation
theory.8 See Craft v. United States, 589 F.2d 1057,
1068 (Ct. Cl. 1978) (“Unless there is a regulation or a
statute that provides otherwise, cases in this court
routinely require the deduction of civilian earnings
[from a back pay award] on an analogy to the principle
of mitigation of damages.”); Laningham v. United
States, 5 Cl. Ct. 146, 158 (Ct. Cl. 1984) (“This rule has
been utilized as an analog to the private contract law
principle of mitigation of damages.”); see also Motto v.
United States, 360 F.2d 643, 645 (Ct. Cl. 1966); Borak
v. United States, 78 F. Supp. 123, 125 (Ct. Cl. 1948).
Here the contract-law analogy applies because the
statute “contains no express remedies” at all with
respect to the government’s obligation. Barnes, 536
U.S. at 187. While the ACA provides specific remedies
for failure of the insurers or insured to comply with
their obligations, see 42 U.S.C. §§ 300gg-22, 18081(h),
“the [ACA] did not establish a [statutory] remedial
scheme” for the government’s non-compliance, Me.
Cmty., 140 S. Ct. at 1330. Section 1402’s silence as to
remedies in this respect suggests that “forms of relief
(Ct. Cl. 1967))); Hambsch v. United States, 848 F.2d 1228, 1231
(Fed. Cir. 1988) (“By the Back Pay Act’s own terms, a tribunal
must also look for an ‘applicable law, rule, regulation, or collective
bargaining agreement’ as the source of an employee entitlement
which an ‘unjustified or unwarranted personnel action’ has
denied or impaired.”).
8

The Back Pay Act was later amended to expressly provide for
such offsets. See 5 U.S.C. § 5596(b)(1). That amendment to the
statute, however, does not change the principles underlying the
previous decisions.

64a
traditionally available in suits for breach of contract”
are appropriate. Barnes, 536 U.S. at 187; see also Me.
Cmty., 140 S. Ct. at 1330. We therefore look to
government contract law to determine the scope of the
insurers’ damages remedy.
With respect to contract claims, the government is
“to be held liable only within the same limits that any
other defendant would be in any other court,” and “its
rights and duties . . . are governed generally by the law
applicable to contracts between private individuals.”
United States v. Winstar Corp., 518 U.S. 839, 892, 895
(1996) (first quoting Horowitz v. United States, 267
U.S. 458, 461 (1925), and then quoting Lynch v. United
States, 292 U.S. 571, 579 (1934)).
B
The traditional damages remedy under contract law
is compensatory in nature. Restatement (Second) of
Contracts § 347 (1981); Barnes v. Gorman, 536 U.S. at
187–90.
The fundamental principle that underlies the
availability of contract damages is that of
compensation. That is, the disappointed
promisee is generally entitled to an award of
money damages in an amount reasonably
calculated to make him or her whole and
neither more nor less; any greater sum
operates to punish the breaching promisor
and results in an unwarranted windfall to the
promisee, while any lesser sum rewards the
promisor for his or her wrongful act in
breaching the contract and fails to provide the
promisee with the benefit of the bargain he or
she made.

65a
24 Samuel Williston & Richard A. Lord, Williston on
Contracts § 64:1 (4th ed. 2020); see also 11 Joseph M.
Perillo & Helen Hadjiyannakis Bender, Corbin on
Contracts § 55.3 (2020) (“[I]t is a basic tenet of contract
law that the aggrieved party will not be placed in a
better position than it would have occupied had the
contract been fully performed.”).
Thus, courts have uniformly held—as a matter of
both state and federal law—that a plaintiff suing for
breach of contract is not entitled to a windfall, i.e., the
non-breaching party “[i]s not entitled to be put in a
better position by the recovery than if the [breaching
party] had fully performed the contract.” Miller v.
Robertson, 266 U.S. 243, 260 (1924); Bluebonnet Sav.
Bank, F.S.B. v. United States, 339 F.3d 1341, 1345
(Fed. Cir. 2003) (“[T]he non-breaching party should
not be placed in a better position through the award of
damages than if there had been no breach.”); LaSalle,
317 F.3d at 1372 (“[T]he non-breaching party is not
entitled, through the award of damages, to achieve a
position superior to the one it would reasonably have
occupied had the breach not occurred.” (citing 3 E.
Allan Farnsworth, Farnsworth on Contracts 193 (2d
ed. 1998)).9

9

See, e.g., John Hancock Life Ins. Co. v. Abbott Labs., 863 F.3d
23, 44 (1st Cir. 2017) (same under Illinois law); VICI Racing, LLC
v. T-Mobile USA, Inc., 763 F.3d 273, 303 (3d Cir. 2014) (same
under Delaware law); Hess Mgmt. Firm, LLC v. Bankston
(In re Bankston), 749 F.3d 399, 403 (5th Cir. 2014) (same under
Louisiana law); Westlake Petrochemicals, L.L.C. v. United
Polychem, Inc., 688 F.3d 232, 243–44 (5th Cir. 2012) (same under
the Uniform Commercial Code); Ed S. Michelson, Inc. v. Neb. Tire
& Rubber Co., 63 F.2d 597, 601 (8th Cir. 1933) (treating the issue
as a general matter of contract law).

66a
This concern to limit contract damages to compensatory amounts is embodied, in part, in the doctrine of
mitigation, which ensures that the non-breaching
party will not benefit from a breach. The mitigation
doctrine has two aspects. First, the non-breaching
party is expected to take reasonable steps to mitigate
his or her damages. Restatement (Second) of Contracts
§ 350 cmt. b (“Once a party has reason to know that
performance by the other party will not be forthcoming, . . . he is expected to take such affirmative steps
as are appropriate in the circumstances to avoid loss
by making substitute arrangements or otherwise.”).
Under common-law principles, the injured party may
not recover damages for any “loss that the injured
party could have avoided without undue risk, burden
or humiliation.” Id. § 350(1); 3 Dan B. Dobbs, Law
of Remedies § 12.6(1), at 127 (2d ed. 1993) (“[T]he
damage recovery is reduced to the extent that the
plaintiff could reasonably have avoided damages he
claims and is otherwise entitled to.”); Roehm v. Horst,
178 U.S. 1, 11 (1900) (explaining that a plaintiff for
breach of contract is entitled to “damages as would
have arisen from the nonperformance of the contract
at the appointed time, subject, however, to abatement
in respect of any circumstances which may have
afforded him the means of mitigating his loss” (quoting
Frost v. Knight, L.R. 7 Exch. 111 (1872))). We need not
determine whether this first aspect of the mitigation
doctrine applies here—such that the insurers were
obligated to increase premiums to secure increased
premium credits.
Rather, here we look to a second aspect of the mitigation doctrine, which recognizes that there must be a
reduction in damages equal to the amount of benefit
that resulted from the mitigation efforts that the non-

67a
breaching party in fact undertook. 10Kansas Gas &
Elec. Co. v. United States, 685 F.3d 1361, 1366 (Fed.
Cir. 2012) (“[M]itigation efforts may result in direct
savings that reduce the damages claim.”); Restatement (Second) of Contracts § 350 cmt. h (explaining
that the calculation of mitigation should reflect
“[a]ctual efforts to mitigate damages”); 11 Corbin on
Contracts § 57.11 (explaining that, in the case of a
buyer breaching a contract for the sale of goods, the
rule “measures the seller’s damages by the contract
price less the market price—the price actually
obtained . . . by a new sale”).
For example, in Kansas Gas and Electric, the
government breached a contract to dispose of the
plaintiff utility companies’ nuclear waste. Kansas Gas
& Elec., 685 F.3d at 1364. Anticipating that the
10

A related principle is that, when the non-breaching party
indirectly benefits from the defendant’s breach, “in order to avoid
overcompensating the promisee, any savings realized by the
plaintiff as a result of the . . . breach . . . must be deducted from
the recovery.” 24 Williston on Contracts § 64:3; 11 Corbin on
Contracts § 57.10 (“A breach of contract may prevent a loss as
well as cause one. In so far as it prevents loss, the amount will be
credited in favor of the wrongdoer.”); Charles T. McCormick,
Handbook on the Law of Damages 146 (1935) (“Where the
defendant’s wrong or breach of contract has not only caused
damage, but has also conferred a benefit upon [the] plaintiff . . .
which he would not otherwise have reaped, the value of this
benefit must be credited to [the] defendant in assessing the
damages.”); LaSalle, 317 F.3d at 1372 (citing McCormick);
Kansas Gas & Elec., 685 F.3d at 1367 (same); Stern v. Satra
Corp., 539 F.2d 1305, 1312 (2d Cir. 1976) (same); see also DPJ Co.
P’ship v. F.D.I.C., 30 F.3d 247, 250 (1st Cir. 1994) (holding that,
with respect to reliance damages for breach of contract, “a
‘deduction’ is appropriate ‘for any benefit received [by the
claimant] for salvage or otherwise’” (alteration in original)
(quoting A. Farnsworth, Contracts § 12.16 (2d ed. 1990))).

68a
government would breach the contract, the utility
companies began a “rerack project” to increase its
storage capacity and mitigate the effects of a government breach. Id. We held that the plaintiffs were
entitled to the costs of its rerack project taken in
mitigation of the government’s breach. Id. at 1365,
1371. We also held, however, that the plaintiffs’
recovery was to be reduced by the “real-world benefit”
realized by the plaintiff’s rerack project. Id. at 1367–
68. Namely, “[w]hile conducting the rerack, the
[plaintiffs] both . . . used racks that could support
higher enrichment fuel assemblies,” which “allowed
[them] to achieve the same energy output from
[their] reactor with fewer fuel assemblies,” thereby
increasing the efficiency of their plant. Id. at 1364.
The plaintiffs argued that the efficiency benefits of
the rerack project were “too remote and not directly
related to the breach because the decision to ‘pursue
more highly enriched fresh nuclear fuel’ was an
‘independent business decision’ and influenced by . . .
market price[s].” Id. at 1367. We rejected that
argument, holding that the rerack project was “part
and parcel of the [plaintiffs]’ mitigation efforts.” Id. We
stated that “[t]he long-term benefit of fuel cost savings
[influenced by market forces] does not sever its
connection to the [plaintiffs]’ mitigation efforts,” and
that the appropriate inquiry was whether, “[b]y
enhancing the racks to accommodate high-enrichment
fuel assemblies, the [plaintiffs] mitigated the [g]overnment’s breach in a way that produced a benefit.” Id.
at 1368. We concluded that the plaintiffs’ damages
were correctly reduced “by the amount of the benefit
received in mitigating the [g]overnment’s partial
breach of the . . . [c]ontract.” Id.

69a
Here, each insurer mitigated the effects of the government’s breach by applying for increased premiums
and, as a result, received additional premium tax
credits in 2018 as a direct result of the government’s
nonpayment of cost-sharing reduction reimbursements. Notably, the government does not argue that it
is entitled to offset the premium increases in the
damages calculation, but it does argue that it is
entitled to offset the additional payments made by the
government in the form of premium tax credits.
The insurers appear not to dispute that if the
elimination of cost sharing-reduction payments
directly triggered increased premium tax credits, an
offset would be appropriate under a contract theory.
But they argue that the premium tax credits were
not “direct benefits” of the breach because they depend
on actions by the insurers—the decision to pursue
increased premiums. These payments were not, in the
appellees’ phrasing, received in the “first step.” We
think the relationship is no less direct because the
insured’s tax credits did not automatically flow from
the elimination of cost sharing reduction payments,
and the insurers played a role by securing the
increased premiums that in turn resulted in the
increased tax credits.
There is thus a direct relationship between costsharing reductions and premiums, and between
premiums and tax credits. The text of the ACA
recognizes the relationship between premiums and
cost-sharing reductions. Section 1412 of the ACA
provides for the “[a]dvance determination and payment of premium tax credits and cost-sharing reductions.” 42 U.S.C. § 18082 (codifying ACA section 1412).
Section 1412(a)(3) states: “the Secretary of the
Treasury makes advance payments of [premium tax]

70a
credits or [cost-sharing] reductions to the [insurers] . . .
in order to reduce the premiums payable by individuals eligible for such credit.” Id. § 18082(a)(3). As we
noted in Sanford, this section may be understood to
indicate that the statute recognizes that, without costsharing reduction reimbursements, “insurers might
otherwise seek higher premiums to enable them to pay
healthcare providers the amounts enrollees are not
paying due to cost-sharing reductions.” Sanford, No.
19-1290, slip op. at 22.
The Claims Court’s findings show that the premium
tax credits flowed directly from the insurers’ mitigation efforts. As the Claims Court found, the plaintiffs
themselves recognized this connection. They negotiated for increased premiums (leading to the increased
tax credits) in direct response to the cessation of costsharing reduction payments:
The Trump administration’s termination of
cost-sharing reduction payments did not
come as a surprise to insurers: “Anticipating
that the Administration would terminate
[cost-sharing reduction] payments, most
states began working with the insurance
companies to develop a plan for how to
respond. . . . And the states came up with an
idea: allow the insurers to make up the
deficiency through premium increases . . . .”
California, 267 F. Supp. 3d at 1134–35 . . . .
In other words, by raising premiums for
silver-level qualified health plans, the insurers would obtain more money from the
premium tax credit program, which would
help mitigate the loss of the cost-sharing
reduction payments.

71a
Cmty., 141 Fed. Cl. at 754–55 (first alteration in
original); id. at 755 n.10 (noting that “increasing
silver-level qualified health plan premiums would not
harm most consumers who qualify for the premium
tax credit because the credit increases as the premium
increases”).
The practice of silver loading—and the resulting
premium tax credits received by each insurer—“was a
direct consequence of the government’s breach” of its
obligations, and “indeed was an extreme measure
forced” by the government’s nonpayment. LaSalle, 317
F.3d at 1372. The government’s payment of the
premium tax credits is directly traceable to the premium increase, and the premium increase is directly
traceable to the government’s breach. The insurers
“received a benefit as a direct result of their mitigation
activity.” Kansas Gas & Elec., 685 F.3d at 1368. The
argument for an offset is particularly strong here
because the insurers received direct payments (rather
than indirect benefits, such as efficiency gains) from
the government due to their mitigation efforts.
The insurers argue, however, that there are two
exceptions to the mitigation principle that defeat the
government’s claim to an offset: (1) the prohibition on
so-called “pass-through” defenses and (2) the collateral
source rule. As to the “pass-through” defense, the
insurers argue that the government, as a breaching
party, may not claim mitigation of damages when the
non-breaching party “passe[s] through” its losses to its
customers. Appellees’ Suppl. Damages. Br. 15 (citing
Hughes Commc’ns Galaxy, Inc. v. United States, 271
F.3d 1060, 1072 (Fed. Cir. 2001)).11 The insurers assert
11

In addition to Hughes, the appellees also rely on cases
arising under antitrust law, see Hanover Shoe, Inc. v. United Shoe
Mach. Corp., 392 U.S. 481 (1968), RICO, see Carter v. Berger, 777

72a
that the cases stand for the proposition that mitigation
may only be considered in the “first step,” and
that “later-step” recoveries such as pass-through are
“irrelevant” to the calculation of damages. Id. at 10.
But this is not a case where a third-party customer
pays for the insurers’ losses, as was the case in
Hughes.12 The complexity of the process cannot
obscure the underlying economic reality that the
government is paying at least some of the increased
costs that the insurers incurred as a result of the
government’s failure to make cost-sharing reduction
payments. See Gov’t Suppl. Damages Br. 24 (“[T]he
government is not urging that [the] plaintiffs’ damages should be reduced merely because [the] plaintiffs
passed on their cost-sharing reduction expenses to
customers. The crucial point is that [the] plaintiffs . . .
passed these expenses on to the government itself,
which by virtue of the ACA’s structure is paying the
cost-sharing reduction expenses . . . in the form of
higher premium tax credits.”).
The government’s claim is not that damages should
be reduced because the insurers passed on the
increased costs to their customers, but that “the
insurers . . . obtain[ed] more money from the premium
tax credit program, which would help mitigate the loss
F.2d 1173 (7th Cir. 1985), and utility overcharges, see S. Pac. Co.
v. Darnell-Taenzer Lumber Co., 245 U.S. 531 (1918).
12

The antitrust, RICO, and utility cases too are distinguishable because they concern situations where costs are passed to a
third-party. See, e.g., S. Pac., 245 U.S. at 534 (explaining that
the pass-through doctrine is concerned with the lack of privity
between the defendant railroad company and the “consumer
who . . . paid [the] increased price”); Adams v. Mills, 286 U.S. 397,
407 (1932) (similar); Hanover Shoe, 392 U.S. at 490 (similar in
the antitrust context).

73a
of the cost-sharing reduction payments.” Cmty., 141
Fed. Cl. at 755 & n.10. The pass-through exception, to
the extent that it is applicable to contract damages,
does not apply here.
Second, the insurers invoke the collateral source
rule, arguing that the additional premium tax credits
were collateral benefits that should not be credited
against their damages. The collateral source rule is a
generally recognized principle of tort law that “bars a
tortfeasor from reducing the damages it owes to a
plaintiff ‘by the amount of recovery the plaintiff
receives from other sources of compensation that are
independent of (or collateral to) the tortfeasor.’”
Johnson v. Cenac Towing, Inc., 544 F.3d 296, 304 (5th
Cir. 2008) (quoting Davis v. Odeco, Inc., 18 F.3d 1237,
1243 (5th Cir. 1994)); see, e.g., Chisholm v. UHP
Projects, Inc., 205 F.3d 731, 737 (4th Cir. 2000);
Fitzgerald v. Expressway Sewerage Constr., Inc., 177
F.3d 71, 73 (1st Cir. 1999). Thus, the collateral source
rule bars a reduction of damages due to “insurance
policies and other forms of protection purchased by
[the] plaintiff,” Johnson, 544 F.3d at 305, or unemployment benefits in the case of a wrongful-discharge case,
Craig v. Y & Y Snacks, Inc., 721 F.2d 77, 83 (3d Cir.
1983).
As with the insurers’ pass-through argument, their
collateral source rule argument fails. We are aware of
no authority, and the insurers cite none, holding that
the collateral source rule applies to contract damages,
and the prevailing authority rejects any such limitation. See, e.g., United States v. Twin Falls, 806 F.2d
862, 873 (9th Cir. 1986) (“We have found no authority
to support the application of the collateral source rule
in the contracts field.” (collecting cases rejecting the
application of the collateral source rule to contract-

74a
based damages)), overruled on other grounds as
recognized by Ass’n of Flight Attendants v. Horizon Air
Indus., Inc., 976 F.2d 541, 551–52 (9th Cir. 1992);
Star Ins. Co. v. Sunwest Metals Inc., 691 F. App’x 358,
361 (9th Cir. 2017) (noting that “California courts
have declined to extend the collateral source rule to
contract-based claims” and that contract damages
rules are “[u]nlike” those in tort damages); LaSalle,
317 F.3d at 1372 (declining to apply the collateral
source rule to government contracts). In any event,
even if that rule applied here, the “source of compensation” is the not “independent” of the government. The
source is the government itself. See Phillips v. W. Co.
of N. Am., 953 F.2d 923, 931 (5th Cir. 1992) (“The
[collateral source] rule is intended to ensure that
the availability of outside sources of income does not
diminish the plaintiff’s recovery, not make the tortfeasor pay twice.”). The collateral source rule does not bar
the reduction in damages.
We conclude that additional premium tax credits
were received by Community and Maine Community
in 2018 as a direct consequence of their mitigation
efforts following the government’s nonpayment of
2018 cost-sharing reduction reimbursements, and the
Claims Court was required to credit the government
with such tax credit payments in determining
damages.
IV
Determining the amount of premium tax credits
paid to each insurer is necessarily a fact-intensive
task. Because the Claims Court rejected the government’s mitigation theory on a limited summary
judgment record, it did not address these calculation
issues. And as the insurers conceded in their briefing
before the Claims Court, to the extent that the

75a
insurers’ premium changes are “relevant . . . to [the]
quantum,” they involve “factual questions that cannot
be resolved on [the existing motion for summary
judgment].” Community Reply in Supp. of Mot. for
Summ. J. 15, Cmty. Health Choice, Inc. v. United
States, No. 18-cv-00005, 141 Fed. Cl. 744, ECF No. 20
(Nov. 30, 2018); Maine Community Mot. for Summ. J.
1, Me. Cmty Health Options v. United States, No. 17cv-02057, 143 Fed. Cl. 381, ECF No. 31 (Apr. 8, 2019)
(adopting “all of the arguments regarding benefit year
2018 raised by . . . Community . . . in [its] brief[]”).
We therefore remand to the Claims Court for a determination of the amount of premium increases (and
resultant premium tax credits) attributable to the
government’s failure to make cost-sharing reduction
payments. This will require either new summary
judgment motions or a trial.
We note that three principles will govern the
remand proceedings.
First, as the insurers argue, some of the silver-level
premium increases (and resulting tax credits) may be
caused by other factors, such as market forces or
increased medical costs. To the extent that this is the
case, the government’s liability is not reduced by the
tax credits attributable to these other factors.
Second, as previously mentioned, increasing the
premium rates for silver plans resulted in an increase
in premium tax credits for all plans on the exchange.
In some states, state regulators have also allowed
insurers to recoup part of their lost cost-sharing
reduction reimbursements by increasing premiums for
other, non-silver plans on the exchange. In these
circumstances, the tax credits for these other plans
(attributable to the silver plan premium increase)
are still caused by the elimination of cost-sharing

76a
reduction payments and will, of course, reduce the
government’s liability. But we do not address whether
in situations where, as here, there have been no
premium increases for other plans, the government’s
liability should be reduced for the increased tax credit
payments with respect to other plans. We leave that
issue to the Claims Court in the first instance.
Finally, the insurers will bear the burden of persuasion with respect to the amount of the tax-credit
increase attributable to the loss of cost-sharing reduction reimbursements. Other circuit courts and state
courts applying state law are inconsistent as to which
party bears the burden of persuasion with respect to
the amount of mitigation.13 But in the federal context
the rule is clear. The plaintiffs bear the burden of
proof:
[A] non-breaching plaintiff bears the burden
of persuasion to establish both the costs that
it incurred and the costs that it avoided as a
13

Compare VICI Racing, LLC v. T-Mobile USA, Inc., 763 F.3d
273, 301 (3d Cir. 2014) (holding that, under Delaware law, “[a]
defendant need not provide an accounting of the costs a plaintiff
should have avoided, but the burden is properly on a defendant
to articulate the actions that would have been reasonable under
the circumstances to mitigate loss”), with John Morrell & Co. v.
Local Union 304A of United Food & Commercial Workers, AFLCIO, 913 F.2d 544, 557 (8th Cir. 1990) (“[T]he breaching party[]
ha[s] the burden of proving that ‘the breach resulted in a direct
and immediate savings to the plaintiff,’ . . . . [T]he defendant must
prove the amount of the offset with reasonable certainty.”); Amigo
Broad., LP v. Spanish Broad. Sys., Inc., 521 F.3d 472, 486 (5th
Cir. 2008) (holding that, under Texas law, “it is the burden of
[the defendants], not [the plaintiff], to show that [the plaintiff]
received a benefit from its expenditures that reduce or offset the
amount of reliance damages to which [the plaintiff] claims it is
entitled”).

77a
result of a breach of contract. The breaching
party may be responsible for affirmatively
pointing out costs that were avoided, but once
such costs have been identified, the plaintiff
must incorporate them into a plausible model
of the damages that it would have incurred
absent the breach.
Bos. Edison Co. v. United States, 658 F.3d 1361, 1369
(Fed. Cir. 2011) (citing S. Nuclear Operating Co. v.
United States, 637 F.3d 1297, 1304 (Fed. Cir. 2011));
see also Sys. Fuels, Inc. v. United States, 666 F.3d
1306, 1312 (Fed. Cir. 2012) (collecting cases). Here, the
government has affirmatively pointed out the insurers’ avoided costs (due to increased premium tax
credits). Therefore, it was the insurers burden to
incorporate those benefits into their damages calculations. Energy Nw. v. United States, 641 F.3d 1300,
1309 (Fed. Cir. 2011) (explaining that, to establish
damages, “a plaintiff [must] show what it would have
done in the non-breach world, and what it did postbreach”). We think that this allocation of the burden of
proof is particularly appropriate here because the
insurers were already required by section 1003 of the
ACA to provide “justification[s]” for premium rate
increases. 42 U.S.C. § 300gg-94(a)(2). Thus, Community and Maine Community—having previously justified their silver-level premium increases—are “in the
best position to adduce and establish such proof.” S.
Nuclear, 637 F.3d at 1304 (quoting 11 Corbin on
Contracts § 57.10 n.15 (2005)).
According to the insurers, they cannot be expected
to bear this burden of proof by comparing “each
insurer’s financial picture now in relation to what it
hypothetically might have been if [the cost-sharing
reduction reimbursements] had been timely paid.”

78a
Appellees’ Suppl. Damages Br. 9. Specifically, the
insurers argue that they cannot “submit a hypothetical model establishing what their costs would have
been in the absence of breach.” Id. at n.9 (quoting Gov’t
Suppl. Damages Br. 8). Given the explicit arguments
that the insurers here have made for rate increases,
we doubt that proof will be as difficult as the insurers’
claim. In any event, as we have discussed, our cases
make clear that the plaintiff seeking to recover
damages must “prov[e] causation by comparing a
hypothetical ‘but for’ world to a plaintiff’s actual
costs.” Energy Nw., 641 F.3d at 1306 (quoting Yankee
Atomic Elec. Co. v. United States, 536 F.3d 1268,
1273–74 (Fed. Cir. 2008)). The insurers here cannot
avoid their burden to prove damages.
V
Although we do not address the Claims Court’s
holding with respect to the insurers’ implied-in-fact
contract theory, the same damages analysis would
apply to that claim as well, since, as the Claims Court
recognized, a claim for breach of an implied-in-fact
contract is subject to the same damages limitations as
an ordinary contract. See Cmty., 141 Fed Cl. at 767–
70 (analyzing damages for breach of an implied-in-fact
contract under “[t]he general rule in common law
breach of contract cases” (quoting Estate of Berg v.
United States, 687 F.2d 377, 379 (Ct. Cl. 1982)); see,
e.g., Lindquist Ford, Inc. v. Middleton Motors, Inc.,
557 F.3d 469, 481 (7th Cir. 2009), as amended (Mar.
18, 2009) (“[A]n implied-in-fact contract is governed by
general contract principles.”); Hill v. Waxberg, 237
F.2d 936, 939 (9th Cir. 1956) (explaining that “the
general contract theory of compensatory damages
should be applied” in an action for breach of an
implied-in-fact contract). There is thus no need on

79a
remand to separately address the insurers’ implied-infact contract claim.
AFFIRMED IN PART, REVERSED AND
REMANDED IN PART
COSTS
No costs.

